<html>
<title> - MARITIME SECURITY STRATEGY IN THE ASIA-PACIFIC REGION</title>
<body><pre>[Senate Hearing 114-214]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-214

         MARITIME SECURITY STRATEGY IN THE ASIA	PACIFIC REGION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                          U.S. GOVERNMENT PUBLISHING OFFICE
99-603 PDF                         WASHINGTON : 2016                          

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7c0dff0d3c5c3c4d8d5dcc09ed3dfdd9e">[email&#160;protected]</a>  





  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                               __________

                             march 25, 2015

                                                                   Page

Ballistic Missile Defense Programs...............................     1

Shear, The Honorable David B., Assistant Secretary of Defense for 
  Asian and Pacific Security Affairs, U.S. Department of Defense.     4
Harris, Admiral Harry B., Jr., USN, Commander U.S. Pacific 
  Command........................................................    10

Questions for the Record.........................................    37


                                 (iii)

 
         MARITIME SECURITY STRATEGY IN THE ASIA-PACIFIC REGION

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2015

                                U.S. Senate
                        Committee on Armed Services
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. John McCain, 
chairman of the committee, presiding.
    Committee Members Present: Senators McCain [presiding], 
Inhofe, Ayotte, Fischer, Cotton, Ernst, Tillis, Sullivan, Lee, 
Reed, Nelson, Manchin, Shaheen, Gillibrand, Donnelly, Hirono, 
Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Well, good morning.
    The Senate Armed Services meets today to receive testimony 
on the U.S. policy in the Asia-Pacific region.
    I want to thank our distinguished witnesses for appearing 
before us today and for your continued service to the Nation.
    America's national interests in the Asia-Pacific region are 
deep and enduring. We seek to maintain a balance of power that 
fosters a peaceful expansion of free societies, free trade, 
free markets, and free commons, air, sea, space, and cyber. 
These are values that we share with increasing numbers of 
Asia's citizens. For 7 decades, administrations of both parties 
have worked with our friends and allies in the region to uphold 
this rules-based order and to enlist new partners in this 
shared effort, an effort that now extends to states like 
Indonesia and Vietnam.
    No country has benefited more from a peaceful regional 
order in the Asia-Pacific region than China. I am betraying my 
advanced age when I say that I still remember being in the 
Great Hall of the People on the occasion of the normalization 
between our countries. Since then, China's social and economic 
development has been remarkable, and it has added to the 
prosperity of the world.
    Unfortunately, we increasingly see a pattern of behavior 
from China that suggests that some of our highest hopes for our 
relationship are not materializing and that call into question 
for nations across the Pacific whether China's rise will, in 
fact, be peaceful. Indeed, many of these troubling activities 
have only increased under the leadership of the new president, 
who will arrive here next week for a state visit.
    China's military modernization continues with its emphasis 
on advanced systems that appear designed to project power, 
counter U.S. military capabilities, and deny the United States 
the ability to access and operate in the western Pacific. At 
the same time, cyber attacks against the United States are 
growing in scope, scale, and frequency. Billions of dollars' 
worth of intellectual property, including sensitive defense 
information, have been stolen. Many of these attacks, 
especially the recent breach at the Office of Personnel 
Management, are believed by everyone to have originated in 
China despite the administration's unwillingness to say so.
    These growing threats are compounded by China's assertion 
of vast territorial claims in the East and South China Seas, 
which are inconsistent with international law. In 2013, Beijing 
proclaimed an air defense identification zone over large 
portions of the East China Sea, including over territory 
claimed by Japan and South Korea. More recently China has 
reclaimed nearly 3,000 acres of land in the South China Sea, 
more than all other claimants combined and at an unprecedented 
pace. Last month, China's foreign minister said it had halted 
these activities, but recently released satellite images show 
clearly that this is not true.
    What's more, China is rapidly militarizing this reclaimed 
land, building garrisons, harbors, intelligence and 
surveillance infrastructure, and at least three airstrips that 
could support military aircraft. With the addition of surface-
to-air missiles and radars, these new land features could 
enable China to declare and enforce an air defense 
identification zone in the South China Sea and to hold that 
vital region at risk.
    China is incrementally and unilaterally changing the status 
quo through coercion, intimidation, even force. Its goal 
appears clear: the assertion of sovereignty over the South 
China Sea, a key economic artery through which approximately $5 
trillion in ship-borne trade passes every year. As one Chinese 
admiral recently told a conference in London about the South 
China Sea, quote, it belongs to China.
    The United States has rightly rejected this view. As 
Secretary of Defense Ash Carter said in May, ``turning an 
underwater rock into an airfield simply does not afford the 
rights of sovereignty or permit restrictions on international 
air or maritime transit." Secretary Carter vowed that ``the 
United States will fly, sail, and operate wherever 
international law allows, as U.S. forces do all over the 
world."
    Unfortunately, it has been 4 months since that speech, but 
the administration has continued to restrict our Navy ships 
from operating within 12 nautical miles of country's reclaimed 
islands. This is a dangerous mistake that grants de facto 
recognition of China's manmade sovereignty claims. These 
restrictions have continued even after China sent its own naval 
vessels within 12 nautical miles of the Aleutian Islands as 
President Obama concluded his recent visit to Alaska.
    After that incident, United States officials emphasized 
that the Chinese ships did not violate international law, which 
allows countries to transit other nations' territorial seas 
under what is called innocent passage. That is true, but we 
have not been asserting our rights just as forcefully. We must 
uphold the principle of freedom of the seas for commercial and 
military purposes on, under, and below the water. The best sign 
of that commitment would be to conduct freedom of navigation 
operations within 12 nautical miles of China's reclaimed 
islands in the South China Sea.
    More broadly, the United States must continue to sustain a 
favorable military balance in the Asia-Pacific region. We must 
remain clear-eyed about the implications of China's rapid 
military modernization. We must take advantage of new and 
emerging technologies to preserve our ability to project power 
over long distances and operate in contested environments. We 
must invest in enhancing the resilience of our forward-deployed 
forces. We must continue to help our allies and partners in the 
Asia-Pacific region to build their maritime capacity, an 
initiative that this committee seeks to further in the fiscal 
year 2016 National Defense Authorization Act [NDAA]. None of 
this will be possible, however, if we continue to live with the 
mindless sequestration and a broken acquisition system.
    All of us want to ensure that we avoid miscalculation, but 
we only encourage miscalculation when there is a gap between 
our words and our actions. It is that gap that China has 
exploited to assert vast territorial claims, bully its 
neighbors, destabilize the region, and challenge the freedom of 
the seas.
    Ultimately, we need to think anew about deterrence. When it 
comes to China's destabilizing activities, it is not that the 
United States is doing nothing. It is that nothing we are doing 
has been sufficient to deter China from continuing activities 
that the United States and our allies and partners say are 
unacceptable, the cyber attacks, the economic espionage and 
theft, the land reclamation, the coercion of its neighbors, and 
the assertion and attempted enforcement of vast, unlawful 
territorial claims. We need to develop options and act on them 
to deter these admittedly unconventional threats or else they 
will continue and grow. They will do so at the expense of the 
national security interests of the United States, the peace and 
stability of the Asia-Pacific region, and a rules-based 
international order.
    With that, I look forward to the testimony of our witnesses 
today.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me first thank you for calling this important hearing on 
maritime security in the Asia-Pacific region and also thank the 
witnesses for appearing today. Thank you, gentlemen, for your 
service to the Nation, to the Navy. Thank you both.
    When Senator McCain and I were in Vietnam, we heard concern 
from almost every single government official about the 
heightened tension in the South China Sea caused by China's 
activities. Vietnam is not alone in this regard. For the last 2 
years, China has undertaken extraordinary and unprecedented 
reclamation activities on disputed land features in the South 
China Sea that have alarmed all of the countries in the region, 
most of which would prefer to resolve these territorial 
disputes through legal means under the United Nations 
Convention on the Law of the Sea. These activities appear to 
have just been the beginning as China has now turned to 
militarizing these features by building airstrips and 
surveillance towers that I believe will further destabilize the 
region.
    While there has been some progress on the bilateral 
strategy to decrease tension between the United States Navy and 
the Chinese Navy for the establishment of new risk reduction 
mechanisms, such as engagement rules to air and maritime 
safety, our efforts to date do not seem to have had an impact 
on China's aggressive tactics in the South China Sea. I would 
like to hear from the witnesses on what the Department believes 
is the best way forward to address this activity and whether 
current efforts are sufficient to deescalate tension and 
convince the Chinese Government to pursue a legal and 
diplomatic solution to its territorial disputes with its 
neighbors.
    I am also quite concerned with North Korea's recent 
rhetoric that it is improving its nuclear arsenal in, quote, 
quality and quantity, further contributing to the heightened 
tensions in the region. Admiral Harris, I would especially like 
to get your assessment and update on the threat posed by the 
North Koreans and how we are addressing it.
    With that, gentlemen, I look forward to your testimony.
    Senator McCain. I welcome the witnesses. Secretary Shear, 
it is nice to see you again and thank you for your continued 
outstanding service, including as our Ambassador to Vietnam. 
Admiral Harris, I know that you are relatively new in your job, 
and we thank you for the great job you are doing. We look 
forward to your testimony. We will begin with you, Mr. 
Secretary.

STATEMENT OF THE HONORABLE DAVID B. SHEAR, ASSISTANT SECRETARY 
    OF DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Shear. Thank you very much, Mr. Chairman, thank 
you, Ranking Member Reed, and all the members of the committee 
for inviting me to join you today.
    I am particularly pleased to be here discussing the Defense 
Department's maritime security strategy for the Asia-Pacific 
region and to be alongside our very capable U.S. Pacific 
Commander, Admiral Harry Harris.
    Last month, the Department of Defense released a report 
detailing its Asia-Pacific maritime security strategy, which 
reflects both the enduring interest the United States has in 
the Asia-Pacific and the premium we place on maritime peace and 
security in this critical part of the world. This strategy is 
one element of the United States Government's larger 
comprehensive strategy to uphold maritime security in the Asia-
Pacific region and protect America's principle interests in 
international law, freedom of navigation, unimpeded lawful 
commerce, and peaceful resolution of disputes.
    For 70 years, United States military presence in the Asia-
Pacific has played an indispensable role in undergirding 
regional peace, stability, and security and will continue to 
protect these interests in the future.
    There are, as you know, growing challenges in maritime 
Asia, trends and behaviors that we detailed in the strategy 
report. Regional military modernization has increased 
significantly the potential for dangerous miscalculations or 
conflict in the maritime domain. Strong nationalist sentiments 
inflame passions over territorial disputes and discourage good 
faith negotiations to resolve them. Competition abounds over 
significant but finite natural resources. In the South China 
Sea, China has almost completed large-scale efforts to reclaim 
land and construct artificial islands on disputed features in 
the Spratly Islands.
    While land reclamation is not new and China is not the only 
claimant to have conducted reclamation, as the chart to my 
right shows, China's recent activities far outweigh other 
efforts in size, pace, and effort. We are concerned about 
China's long-term intentions for these features and the 
potential for further militarization of the South China Sea. As 
we have stated clearly to the Chinese, these actions are not 
only unilaterally altering the status quo, they are also 
complicating the lowering of tensions and the peaceful 
resolution of disputes.
    Let me be clear. The Defense Department is not standing 
still in the face of these challenges. We are systematically 
implementing a long-term strategy aimed at preserving United 
States interests and military access, building the capability 
of our allies and partners, and preserving the stability of the 
Asia-Pacific domain. The Department's strategy comprises four 
lines of effort.
    First, we are strengthening our military capacity to ensure 
the United States can successfully deter conflict and coercion 
and respond decisively when needed. DOD [Department of Defense] 
is investing in new cutting-edge capabilities, deploying our 
finest maritime capabilities forward, and distributing these 
capabilities more widely across the region.
    Second, we are working together with our allies and 
partners from Northeast Asia to the Indian Ocean to build their 
maritime capacity. We are building greater interoperability and 
developing more integrated operations with our allies and 
partners. We are also expanding our regional exercise program 
with a particular focus on developing new multilateral 
exercises and expanding training with Southeast Asian partners.
    The Defense Department is also implementing a new Southeast 
Asia maritime security initiative. This effort will increase 
training and exercises, personnel support, and maritime domain 
awareness capabilities for our partners in Southeast Asia.
    On that note, I would like to express our thanks and 
appreciation to the members of this committee for their work to 
include a South China Sea-focused maritime capacity- building 
authority in their draft of the fiscal year 2016 NDAA. I cannot 
emphasize enough how important maritime capacity-building is to 
our overarching strategy.
    Third, we are leveraging defense diplomacy and building 
greater transparency. We are trying to reduce the risk of 
miscalculation or conflict and promoting shared maritime rules 
of the road. The Department is actively seeking to mitigate 
risk in maritime Asia both for bilateral efforts with China, as 
well as region-wide risk reduction measures.
    These and other elements of United States-China defense 
diplomacy have yielded some positive results. United States and 
PLA [People's Liberation Army] Navy vessels have now 
successfully employed the code for unplanned encounters at sea 
on multiple occasions during recent interactions. I would note 
that while the United States operates consistent with the 
United Nations Convention on the Law of the Sea [UNCLOS], we 
have seen positive momentum in promoting shared rules of the 
road. Our efforts would be greatly strengthened by Senate 
ratification of UNCLOS. Mr. Chairman, I would like to thank you 
and other members for your support on this issue.
    Finally, we are working to strengthen regional security 
institutions and encourage the development of an open and 
effective regional security architecture. ASEAN [Association of 
Southeast Asian Nations] is an increasingly important DOD 
partner, and the Department is enhancing its engagement in 
ASEAN-based institutions. This includes efforts such as our 
decision to host ASEAN defense ministers for their 2014 U.S.-
ASEAN Defense Forum, as well as Secretary Carter's recent 
announcement of DOD's commitment to deploy a technical advisor 
in support of ASEAN's maritime security efforts.
    Throughout its history, the U.S. has relied upon and 
advocated for freedom of the seas. This freedom is essential to 
our economic and security interests and nowhere more so than in 
the Asia-Pacific. The Department is constantly working to 
evaluate the strategic environment to ensure we have the 
necessary strategy, resources, and tools to meet the challenges 
we face. We are clear-eyed about the growing complexity of this 
task. Yet, we are making progress that, over the long term, 
will be significant in shaping the regional security 
environment. We are making calculated and careful investments. 
We are gaining unprecedented access in the region. Our 
relationships and interoperability with allies and partners are 
stronger than ever before. Moreover, partners across the region 
are enhancing their defense cooperation with each other in 
unprecedented ways.
    In short, we are deeply committed to the maritime security 
of the Asia-Pacific region. We do not discount the extent of 
the challenges, but we are undertaking a comprehensive effort 
to ensure that maritime Asia remains open, free, and secure in 
the decades ahead.
    Thank you very much.
    [The prepared statement of Secretary Shear follows:]

               prepared statement by hon. david b. shear
                              introduction
    Thank you very much Chairman McCain. Thank you also to Ranking 
Member Reed and other members of the committee for inviting me to be 
here to speak with you today.
    I am pleased to be here to discuss maritime issues in the Asia-
Pacific and the Department of Defense's new Asia-Pacific Maritime 
Security Strategy, which we released last month. This strategy reflects 
the enduring interests the United States has in the region and the 
premium we place on maritime peace and security in this critical part 
of the world. Throughout its history, the United States has relied upon 
and advocated for freedom of the seas, and this freedom is essential to 
our economic and security interests, nowhere more so than in the Asia-
Pacific.
    It is important to note that while this strategy reflects the 
Defense Department's maritime objectives and activities in the Asia-
Pacific, DOD's efforts are simply one aspect of a much broader U.S. 
strategy to protect America's principled interests in upholding 
international law, freedom of navigation, unimpeded lawful commerce, 
and peaceful resolution of disputes. The United States has a 
comprehensive strategy to uphold maritime security in the region--one 
that leverages diplomacy, multilateral institutions, commitment to 
international law, maritime capacity building, trade, and continued 
engagement across the region.
    The Department of Defense plays an important part in supporting 
these goals. For seventy years, our robust maritime capabilities, and 
the presence of U.S. sailors, soldiers, Marines, and airmen, have 
helped protect the freedom of navigation and commerce upon which the 
United States and all Asia-Pacific nations rely. As we note in the 
Asia-Pacific Maritime Security Strategy report, ``freedom of the seas'' 
reflects far more than simply freedom of navigation for commercial 
vessels. It also implies all of the rights, freedoms, and lawful uses 
of the sea and airspace, including for military ships and aircraft, 
recognized under international law.
    Unfortunately, in recent years, we have seen a number of changes 
take place in the maritime security environment that have the potential 
to undermine the freedoms and the peace and security the region has 
enjoyed for decades. So before I discuss the details of our strategy, 
allow me to offer some thoughts on the strategic context for this 
report.
                           strategic context
    Over the past several decades, the Asia-Pacific has experienced one 
of the most tremendous economic transformations in modern history, 
thanks in no small part to the growth of free and open trade across the 
region's sea lanes. As Secretary Carter noted, this growth has been the 
result of a peaceful security environment. While regional trade and 
prosperity continue to grow, recent developments in the maritime 
domain, if left unaddressed, could challenge the stable security 
environment that has enabled this historic progress. These include 
rapid military modernization, growing competition for resources, and 
intensifying territorial and maritime disputes.
    In recent years, Asia-Pacific nations have significantly increased 
their surface, subsurface, and air capabilities, leading to a dramatic 
increase in the number of military planes and vessels operating in 
close proximity in the maritime domain. At the same time, this military 
modernization has been accompanied by a corresponding increase in 
regional law enforcement capabilities, which have become increasingly 
relevant as some countries, particularly China, are using their 
civilian assets to assert claims over disputed maritime areas.
    While military modernization efforts are a natural and expected 
element of economic growth, they also increase the potential for 
dangerous miscalculations or conflict. This places a premium on the 
need for Asia-Pacific nations to adhere to shared maritime rules of the 
road, such as the Code for Unplanned Encounters at Sea (CUES), and to 
pursue increased transparency and risk reduction mechanisms to ensure 
safe behavior in the maritime domain.
    The potential for instability is also exacerbated by the existence 
of long-standing territorial and maritime disputes across the region, 
most notably in the South China Sea. While we do not take a position on 
conflicting territorial claims in the South China Sea, we do emphasize 
that all maritime claims must be derived from land features in 
accordance with international law as reflected in the Law of the Sea 
Convention, and any disputes should be settled peacefully and in 
accordance with international law. We have called for all claimants to 
reciprocally and permanently halt land reclamation, the construction of 
new facilities, and the further militarization of outposts on disputed 
features. We have also encouraged all claimants to conclude a Code of 
Conduct by the time of the East Asia Summit in November, one that would 
create clear rules of the road in the South China Sea.
    China's large-scale land reclamation on disputed features over the 
past two years has brought concerns about regional stability into 
sharper focus. While land reclamation is not a new development, and 
China is not the only claimant to have conducted reclamation, China's 
recent activities significantly exceed other efforts in size, pace, and 
effect. China has now reclaimed more than 2,900 acres, amounting to 17 
times more land in 20 months than the other claimants combined over the 
past 40 years, and accounting for approximately 95 percent of all 
reclaimed land in the Spratly Islands. China has clearly stated that 
the outposts will have a military component to them, and by undertaking 
these actions, China is not only unilaterally altering the status quo 
in the region, they are also complicating the lowering of tensions and 
the resolution of South China Sea disputes. We continue to encourage 
all claimants to commit to reciprocally and permanently halt further 
land reclamation, construction, and militarization of outposts in the 
South China Sea, in order to create space for diplomatic solutions to 
emerge.
                        dod's maritime strategy
    The Department has devised a comprehensive and systematic maritime 
strategy to meet these challenges. Our strategy is focused on three 
fundamental goals: safeguarding the freedom of the seas; deterring 
conflict and coercion; and promoting adherence to international law and 
standards.
    In pursuit of these goals, the Department is: strengthening United 
States military capacity; building the maritime capabilities of allies 
and partners in maritime Asia; reducing the risk of potential conflicts 
by leveraging military diplomacy; and strengthening regional security 
institutions.
Strengthening U.S. Military Capacity
    As part of the rebalance to the Asia-Pacific, we are strengthening 
our military capacity to ensure the United States can successfully 
deter conflict and coercion and respond decisively when needed. To 
achieve this objective, the Department is investing in new cutting-edge 
capabilities, deploying our finest maritime capabilities forward, and 
distributing these capabilities more widely across the region.
    We also are enhancing our regional force posture--particularly air 
and maritime assets--to ensure our ability to execute key missions. We 
are deploying some of our most advanced surface ships to the Asia-
Pacific, including replacing the aircraft carrier USS George Washington 
in 2015 with the newer USS Ronald Reagan; sending our newest air 
operations-oriented amphibious assault ship, the USS America, to the 
region by 2020; deploying two additional Aegis-capable destroyers to 
Japan; and home-porting all three of our newest class of stealth 
destroyers, the DDG-1000, with the Pacific fleet. Through these and 
other efforts, the U.S. Navy will increase the size of Pacific Fleet's 
overseas assigned forces by approximately 30 percent over the next five 
years.
    This enhanced military capacity will allow the Department to 
maintain a higher tempo of routine and persistent maritime presence 
activities across the Asia-Pacific. In short, you will see more of the 
U.S. Navy in the region in the coming years. United States Pacific 
Command maintains a robust shaping presence in and around the South 
China Sea, with activities ranging from training and exercises with 
allies and partners to port calls to Freedom of Navigation Operations 
and other routine operations. These activities are central to our 
efforts to dissuade conflict, preserve our access to the region, 
encourage peaceful resolution of maritime disputes and adherence to the 
rule of law, and to strengthen our relationships with partners and 
allies.
    A key component of DOD operations falls under the Freedom of 
Navigation (FON) program, conducted in conjunction with our interagency 
partners. The Department is placing new emphasis on these operations, 
which challenge excessive maritime claims around the world and directly 
support adherence to international maritime law. Between 2013 and 2014, 
we increased global FON operations by 84 percent, the majority of which 
were conducted in the Asia-Pacific. As Secretary Carter has stated, the 
United States will continue to fly, sail, and operate wherever 
international law allows, as U.S. forces do all around the world, and 
our FON Operations are a critical example of this.
    The Department is also enhancing its forward presence by using 
existing assets in new ways, across the entire region, with an emphasis 
on operational flexibility and maximizing the value of U.S. assets 
despite the tyranny of distance. This is why the Department is working 
to develop a more distributed, resilient, and sustainable posture. As 
part of this effort, the United States will maintain its presence in 
Northeast Asia, while enhancing defense posture across the Western 
Pacific, Southeast Asia, and the Indian Ocean. The cornerstone of our 
forward presence will continue to be our presence in Japan, and in an 
effort to ensure that this presence is sustainable, we have worked 
within the alliance to develop a new laydown for the U.S. Marine Corps 
in the Pacific. Through the bilateral Force Posture Agreement (FPA) 
with Australia and the Enhanced Defense Cooperation Agreement (EDCA) 
with the Philippines, the Department will be able to increase our 
routine and persistent rotational presence in Southeast Asia for 
expanded training with regional partners.
    Through these efforts, there should be no doubt that the United 
States will maintain the necessary military presence and capabilities 
to protect our interests and those of our allies and partners against 
potential threats in the maritime domain.
Building Ally and Partner Capacity
    However, our strategy involves far more than U.S. capacity and 
presence. The bedrock of our approach in the region is our strong 
network of allies and partners, and the combined capabilities these 
relationships can bring to bear. Through regular and close 
consultations with our allies and partners from Northeast Asia to the 
Indian Ocean, the Department of Defense is working to bolster the 
maritime capacity and capabilities of countries in the region.
    First, we are building greater interoperability and developing more 
integrated operations with our allies and partners. For example, with 
our close ally Japan, we are working to improve the maritime-related 
capabilities of the Japan Self-Defense Forces. As Japan acquires 
advanced capabilities such as V-22 Ospreys, E-2D Hawkeyes, and Global 
Hawk Unmanned Aerial Vehicles, we are building a stronger and more 
interoperable alliance. Our expanded bilateral cooperation will now 
encompass a range of activities, from peacetime cooperation on shared 
maritime domain awareness, up to cooperation across a range of 
contingencies. In Southeast Asia, the Department is assisting the 
Philippines to more effectively establish a minimum credible defense, 
and we have established new bilateral working groups with Vietnam, 
Indonesia, and Singapore to support their maritime defense 
requirements. In South Asia, we are working with the Indian Navy on 
aircraft carrier technology sharing and design; the United States-India 
Joint Aircraft Carrier Working Group (JACWG) had its first formal 
meeting in August, led by Vice ADM Cheema, the Commander in Chief of 
India's Western Fleet.
    We also are increasing the size, frequency, and sophistication of 
our regional exercise program, with a particular focus on developing 
new exercises with Southeast Asian partners and expanding our 
multilateral exercise program. A large contingent of United States, 
Philippine, and Australian military personnel participated in this 
year's exercise Balikatan in the Philippines, including observers from 
Japan. DOD is continuing to expand its maritime engagements elsewhere 
in Southeast Asia, with important partners like Indonesia, Malaysia, 
and Vietnam. In Indonesia, the April 2015 iteration of the Sea 
Surveillance Exercises included a flight portion over the South China 
Sea for the first time, and the United States Marine Corps participated 
in an amphibious exercise with the Malaysian Armed Forces. In Vietnam, 
we are rapidly growing our maritime training, and in just six years, 
our naval cooperation has grown from a simple port visit to multi-day 
engagements that allow our sailors to better understand each other's 
operations and procedures.
    Our maritime capacity building efforts in Southeast Asia do not 
stop there. As Secretary Carter announced at the Shangri-La Dialogue, 
the Department is implementing a new Southeast Asia Maritime Security 
Initiative (MSI) that will increase training and exercises, personnel 
support, and maritime domain awareness capabilities for our partners in 
Southeast Asia. As part of MSI, DOD, in coordination with the 
Department of State, will consult with our allies and partners to 
define the requirements needed to accomplish the goals of MSI and 
explore other enduring opportunities for maritime collaboration. In the 
near term, we are focused on several lines of effort: working with 
partners to expand regional maritime domain awareness capabilities and 
develop a regional common operating picture; providing the necessary 
infrastructure, logistics support, and operational procedures to enable 
more effective maritime response operations; strengthening partner 
nation operational capabilities through expanded maritime exercises and 
engagements; helping partners strengthen their maritime institutions, 
governance, and personnel training; and identifying modernization and 
new system requirements for critical maritime security capabilities. I 
not only thank you for remaining focused on this important effort, but 
also urge your continued support as we move forward to implement this 
strategy.
Reducing Risk
    In addition to our efforts to improve regional capabilities, the 
Department is also leveraging defense diplomacy to build greater 
transparency, reduce the risk of miscalculation or conflict, and 
promote shared maritime rules of the road. The Department is pursuing a 
two-pronged approach to achieve this objective, one focusing on our 
bilateral relationship with China, and the other focused on region-wide 
risk reduction measures.
    In recent years, we have reinvigorated efforts to expand bilateral 
risk reduction mechanisms with China, including the Military Maritime 
Consultative Agreement (MMCA) and the establishment of an historic 
Memorandum of Understanding (MOU) on Rules of Behavior for Safety of 
Air and Maritime Encounters in 2014. This MOU established a common 
understanding of operational procedures for air and maritime encounters 
to reduce the possibility of misunderstanding between the United States 
and Chinese militaries. The MOU currently includes an annex on ship-to-
ship encounters and we are working to expand it further by the end of 
2015. Already, United States-China defense diplomacy has yielded 
positive results; there have been no unsafe intercepts since August 
2014. In further efforts to reduce risk, U.S. Navy and PLA Navy vessels 
have successfully employed CUES during recent interactions, lowering 
the likelihood of miscalculations that could lead to dangerous 
escalation.
    Of course, reaching agreement on bilateral risk reduction measures 
with China is necessary, but not sufficient. The Department is also 
working to help the Association of Southeast Asian Nations (ASEAN) and 
other regional partners establish regional risk reduction mechanisms, 
such as operational-level hotlines to establish more reliable and 
routine crisis communication mechanisms. As I mentioned, MSI will help 
develop a regional common operating picture to reduce risk, but we also 
encourage the efforts of countries that seek to reduce tensions through 
their own initiatives--such as Indonesia and Malaysia--who recently 
announced their intention to exchange maritime envoys in an effort to 
increase mutual transparency. We also have supported the efforts 
between China and Japan to do the same in the East China Sea.
Building Regional Architecture
    Finally, we are working to strengthen regional security 
institutions and encourage the development of a transparent, 
integrated, and diversified effective regional security architecture. 
ASEAN is an increasingly important DOD partner, and the Department is 
continuing to enhance its engagement in ASEAN-based institutions such 
as the ASEAN Defense Ministers Meeting Plus (ADMM-Plus). To this end, 
Secretary Carter will travel to Kuala Lumpur in November for the next 
ADMM-Plus meeting. This will follow a host of new initiatives and 
engagements with various ASEAN-related institutions. For example, at 
the May 2015 Shangri-La Dialogue in Singapore, the Secretary of Defense 
announced DOD's commitment to deploy a technical advisor to augment the 
U.S. Mission to ASEAN in support of ASEAN's maritime security efforts, 
and we are making progress toward that goal. We are also leveraging 
informal opportunities to strengthen regional cooperation, such as the 
first United States-ASEAN Defense Forum then-Secretary of Defense Chuck 
Hagel hosted in Hawaii in April 2014. Through these venues, we aim to 
promote candid conversations about ongoing challenges in the maritime 
domain, and encourage greater information sharing and cooperative 
solutions.
    At its core, any discussion about the future of the Asia-Pacific 
naturally involves a discussion about maritime security, given the 
defining characteristic of the maritime domain in the region. Our 
strategy enables countries in the region to have confidence in our 
conviction to uphold our principled maritime interests. Our strategy 
also is designed to strengthen the rules-based order, where laws and 
standards, not size and strength, determine outcomes to disputes. We 
are not alone in seeking to advance this vision for the region, which 
aligns our interests with our values; indeed, it is widely shared by 
countries across the region that eagerly support our efforts. Even as 
we address immediate challenges to our interests and those of our 
allies and partners, we remain committed to this longer term goal.
                               conclusion
    The Asia-Pacific and its maritime waterways remain critical to 
United States security. The Department is actively working to stay 
ahead of the evolving maritime security environment in the Asia-Pacific 
by implementing a comprehensive strategy that will protect peace and 
stability in the maritime domain. Together with our interagency 
colleagues and regional allies and partners, the Department will help 
ensure that maritime Asia remains open, free, and secure in the decades 
ahead.

    Senator McCain. Thank you.
    Admiral Harris?

STATEMENT OF ADMIRAL HARRY B. HARRIS, JR., USN, COMMANDER U.S. 
                        PACIFIC COMMAND

    Admiral Harris. Thank you, Chairman McCain, Senator Reed, 
and distinguished members. It is my honor to appear once again 
before this committee. I am pleased to be here with Assistant 
Secretary Shear to discuss the Asia-Pacific maritime 
strategies.
    The United States is a maritime nation and the importance 
of the Asia-Pacific region to our Nation's security and 
prosperity cannot be overstated. Almost 30 percent of the 
world's maritime trade, as the chairman said, over $5 trillion, 
transits the South China Sea annually. This includes $1.2 
trillion in ship-borne trade bound for the United States. The 
Asia-Pacific region is critical for our Nation's economic 
future.
    For decades, this region has remained free from major 
conflicts, allowing the United States and other Pacific 
nations, including China, to enjoy the benefits of its vast 
maritime spaces. However, the security environment is changing, 
potentially placing this stability at risk. Rapid economic and 
military modernization and a growing demand for resources have 
increased the potential for conflict. Peacetime freedom of 
navigation is under pressure.
    If not handled properly, territorial and maritime disputes 
in the East and South China Seas could disrupt stability 
throughout the region. Claimants to disputed areas routinely 
use maritime law enforcement and coast guard vessels to enforce 
their claims while nominally keeping these issues out of the 
military sphere. While no country appears to desire military 
conflict, tactical miscalculations can lead to strategic 
consequences.
    The United States does not take sides on issues of 
sovereignty with respect to these territorial disputes, but we 
do insist that all maritime claims be derived from naturally-
formed land features in accordance with customary international 
law, as reflected in the Law of the Sea Convention. The United 
States also emphasizes the importance of peacefully resolving 
maritime and territorial disagreements in accordance with 
international law, and we oppose the use of intimidation, 
coercion, or aggression. The U.S. believes every nation, large 
or small, should have the opportunity to develop and prosper in 
line with international laws and standards. If one country 
selectively ignores these rules for its own benefit, others 
will undoubtedly follow, eroding the international legal system 
and destabilizing regional security and the prosperity of all 
Pacific states. Part of PACOM's [United States Pacific Command] 
role in the Asia-Pacific maritime strategy will be ensuring all 
nations have continued access to the maritime spaces vital to 
the global economy.
    International recognition and protection of freedom of 
navigation is vital to the world's economy and our way of life. 
To safeguard the freedom of the seas, PACOM routinely exercises 
with allies and partners, executes freedom of navigation 
operations, and maintains a robust presence throughout the 
region. These activities help build partner capacity to 
contribute to the region's stability, enhance relationships, 
improve understanding of shared challenges, and message the 
U.S.'s resolve.
    The Asia-Pacific maritime security strategy outlines our 
plan to safeguard freedom of the seas, deter conflict, and 
promote adherence to international laws and standards. It 
reaffirms our commitment to the principles found in UNCLOS, and 
in accordance with this strategy and in pursuit of these goals, 
Pacific Command's forces fly, sail, and operate wherever 
international law allows, while continuing to strengthen the 
relationships and rule of law that enabled the peaceful rise of 
every nation in the region.
    A fundamental factor in the feasibility of this new 
strategy has been the rebalance to the Pacific. The rebalance, 
initiated almost 4 years ago by President Obama, set the 
conditions for the implementation of this strategy. The 
rebalance strengthened treaty alliances and partnerships, 
increased partner capacities and cooperation, improved 
interoperability, and increased security capabilities in the 
region. DOD's new maritime strategy capitalizes on the momentum 
of the rebalance and continues with its initiatives.
    In executing the new maritime strategy, PACOM will continue 
to employ the most advanced and capable platforms as they are 
deployed or assigned to the Pacific; use the forward presence 
of military forces to engage allies and partners to deter 
aggression; reinforce internationally accepted rules and norms, 
including the concepts of freedom of navigation and innocent 
passage; train and exercise with allies and partners to 
increase interoperability and build trust; implement risk 
reduction mechanisms such as the Code for Unplanned Encounters 
at Sea and the United States-China Confidence Building Measures 
to help prevent accidents and tactical miscalculations; and 
continue deepening alliances and partnerships through strategic 
efforts in places like Japan, Korea, Australia, Thailand, and 
the Philippines, while building new and deeper relationships in 
places like Singapore, India, Vietnam, and other likeminded 
friends and partners.
    Thank you for your continued support to USPACOM and our men 
and women in uniform and their families who live and work in 
the vast Asia-Pacific region. I look forward to answering your 
questions.
    [The prepared statement of Admiral Harris follows:]

           Prepared Statement by Admiral Harry B. Harris, Jr.
    Chairman McCain, Senator Reed, and distinguished members, it's my 
honor to appear once again before this committee. I am pleased to be 
here with Assistant Secretary Shear to discuss the Asia Pacific 
Maritime Security Strategy.
    The United States is a maritime nation and the importance of Asia-
Pacific region to our Nation's security and prosperity cannot be 
overstated. Almost 30 percent of the world's maritime trade--$5.3 
trillion--transits the South China Sea annually. This includes $1.2 
trillion in ship-borne trade bound for the United States. The Asia-
Pacific region is critical for our nation's economic future.
    For decades, this region has remained free from major conflicts, 
allowing the United States and other Pacific nations, including China, 
to enjoy the benefits of its vast maritime spaces. However, the 
security environment is changing, potentially placing this stability at 
risk. Rapid economic and military modernization and a growing demand 
for resources have increased the potential for conflict. Peacetime 
freedom of navigation is under pressure.
    If not handled properly, territorial and maritime disputes in the 
East and South China Seas could disrupt stability throughout the 
region. Claimants to disputed areas routinely use maritime law 
enforcement and coast guard vessels to enforce their claims while 
nominally keeping these issues out of the military sphere. While no 
country appears to desire military conflict, tactical miscalculations 
can lead to strategic consequences.
    The United States does not take sides on issues of sovereignty with 
respect to these territorial disputes, but we do insist that all 
maritime claims be derived from naturally-formed land features in 
accordance with customary international law, as reflected in the Law of 
the Sea Convention. The United States also emphasizes the importance of 
peacefully resolving maritime and territorial disagreements in 
accordance with international law, and we oppose the use of 
intimidation, coercion, or aggression. The U.S. believes every nation, 
large or small, should have the opportunity to develop and prosper, in 
line with international laws and standards. If one country selectively 
ignores these rules for its own benefit, others will undoubtedly 
follow, eroding the international legal system and destabilizing 
regional security and the prosperity of all Pacific states. Part of 
PACOM's role in the Asia-Pacific Maritime Strategy will be ensuring all 
nations have continued access to the maritime spaces vital to the 
global economy.
    International recognition and protection of freedom of navigation 
is vital to the world's economy and our way of life. To safeguard the 
freedom of the seas, USPACOM routinely exercises with allies and 
partners, executes Freedom of Navigation operations, and maintains a 
robust presence throughout the region. These activities help build 
partner capacity to contribute to the region's security, enhance 
relationships, improve understanding of shared challenges, and message 
the U.S.'s resolve.
    The Asia-Pacific Maritime Security Strategy outlines our plan to 
safeguard freedom of the seas, deter conflict, and promote adherence to 
international law and standards. It reaffirms our commitment to the 
principles found in UNCLOS. In accordance with this strategy and in 
pursuit of these goals, Pacific Command's forces will fly, sail, and 
operate wherever international law allows, while continuing to 
strengthen the relationships and rule of law that enabled the peaceful 
rise of every nation in the region.
    A fundamental factor in the feasibility of this new strategy has 
been the Rebalance to the Pacific. The Rebalance, initiated almost four 
years ago by President Obama, set the conditions for the implementation 
of this strategy. The Rebalance strengthened treaty alliances and 
partnerships, increased partner capacity and cooperation, improved 
interoperability, and increased security capabilities in the region. 
DOD's new maritime strategy capitalizes on the momentum of the 
Rebalance and continues with its initiatives. In executing the new 
maritime strategy, PACOM will continue to:
    <bullet>  Employ the most advanced and capable platforms as they 
are deployed or assigned to the Pacific.
    <bullet>  Use the forward presence of military forces to engage 
allies and partners and deter aggression.
    <bullet>  Reinforce internationally accepted rules and norms 
including the concepts of freedom of navigation and innocent passage.
    <bullet>  Train and exercise with allies and partners to increase 
interoperability and build trust.
    <bullet>  Implement risk reduction mechanisms such as the Code for 
Unplanned Encounters at Sea and the United States-China Confidence 
Building Measures to help prevent accidents and tactical 
miscalculations.
    <bullet>  Continue deepening alliances and partnerships through 
strategic efforts in places like Japan, Korea, Australia, Thailand and 
the Philippines, while building new and deeper military relationships 
in places like Singapore, India, Vietnam, and with other like-minded 
friends and partners.
    Thank you for your continued support to USPACOM and our men and 
women in uniform, and their families, who live and work in the vast 
Asia-Pacific region. I look forward to answering your questions.

    Senator McCain. Well, thank you, Admiral.
    Maybe I can begin with this news report out of Defense One, 
Defiant Chinese Admiral's Message: South China Sea Belongs to 
China. There was a gathering I think in London, and there was 
Chinese and American and Japanese, as well as other military 
leaders. The admiral who commands the North Sea fleet for the 
People's Liberation Army and Navy, South China Sea is the name 
indicated as a sea area. It belongs to China.
    What is our response to that, Mr. Secretary?
    Secretary Shear. Thank you, Senator.
    The Chinese have said that before. It was nothing new for 
the admiral to have said that. If he was referring to the area 
of the South China Sea demarcated by the so-called nine-dash 
line, it is clear to us that that nine-dash line is not 
consistent with international law, and we do not recognize the 
Chinese claim to the area encompassed by the nine-dash line.
    With regard to our operations in that area, we sail and we 
fly and we operate within that area on a daily basis. Every 
time we do so----
    Senator McCain. You operate within that area, but you have 
not operated within 12 miles of these reclaimed features. Have 
you?
    Secretary Shear. We have conducted freedom of navigation 
operations.
    Senator McCain. Have we gone within the 12 miles of the 
reclaimed area? The answer I believe is no.
    Secretary Shear. We have not recently gone within 12 miles 
of a reclaimed area. However----
    Senator McCain. When was the last time we did?
    Secretary Shear. I believe the last time we conducted a 
freedom of navigation operation in the South China Sea was 
April of this year.
    Senator McCain. Within the 12-mile limit. Come on, Mr. 
Secretary. I am very interested in the 12-mile limit because if 
you respect the 12-mile limit, then that is de facto 
sovereignty agreed to tacitly to the Chinese.
    Now, have we or have we not operated within the 12-mile 
limit in recent years?
    Secretary Shear. I believe the last time we conducted a 
freedom of navigation operation within 12 nautical miles of one 
of those features was 2012.
    Senator McCain. 2012, 3 years ago.
    Secretary Shear. I might add, Senator, if I may, that 
freedom of navigation operations are one tool in a larger 
toolbox that we are going to need to use in fixing this issue. 
We are in the process of putting together that toolbox. As we 
move forward, we are going to consider freedom of navigation 
operations, along with a variety of other options to ensure 
that both the Chinese and the region understands that we can 
operate and we do operate anywhere we can.
    Senator McCain. Then it seems to me that we ought to do it 
because you see the area that has now been filled in. Since the 
last time we operated within the 12-mile limit, that number of 
acres has been dramatically increased, and we have watched it 
and really--well, the best sign of respecting freedom of the 
seas is not to de facto recognize a 12-mile limit, and the best 
way you can make sure that that is not recognized is to sail 
your ships in international waters, which it clearly is--these 
are artificial islands--and pass right on by. That then puts 
the lie to the admiral who said the South China Sea is--he 
indicated it belongs to China. It does not belong to China. It 
belongs to the international waterways. If people are allowed 
to fill in islands and so, therefore, then they are subject to 
a 12-mile limit. The best way to prove that they are not is to 
go ahead and go in it. We have not done that since 2012. I do 
not find that acceptable, Mr. Secretary. With all the other 
tools you have in the toolbox, the most visible assertion of 
freedom of the seas is to peacefully sail inside the 12-mile 
limit of artificial islands, which in any version of 
international law is not allowed to be sovereign territory of 
any nation.
    Secretary Shear. Well, I agree with you, Mr. Chairman, that 
the South China Sea does not belong to China. We have in recent 
years conducted freedom of navigation operations in the 
vicinity of those features, and doing so again is one of the 
array of options we are considering.
    Senator McCain. Well, it is an option that has not been 
exercised in 3 years.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Admiral Harris, what do you feel about it?
    Admiral Harris. Sir, I agree that the South China Sea is no 
more China's than the Gulf of Mexico is Mexico's. I think that 
we must exercise our freedom of navigation throughout the 
region. Part of my responsibility as the Pacific Command 
Commander is to give options to the President and to the 
Secretary, and those options are being considered and we will 
execute as directed by the President and the Secretary.
    Senator McCain. I have gone over my time, but just very 
quickly, Mr. Secretary, with respect to China, do you agree 
with DNI [Director of National Intelligence] Clapper's comments 
that the United States has no effective policy to deter China 
in cyberspace? Last week, he testified before the House 
Intelligence Committee. The United States lacked, quote, both 
the substance and the mindset of deterrence in cyberspace.
    Secretary Shear. I would refer to what the President said 
last Friday when he stated that we can have a competition in 
cyberspace with China or with other countries, but we will win. 
What we are seeking is understandings.
    Senator McCain. Are we winning now?
    Secretary Shear. I agree with General Clapper that 
deterring actions in cyberspace is very difficult.
    Senator McCain. Are we winning now?
    Secretary Shear. I think everybody knows that we have the 
capability to----
    Senator McCain. You know, Mr. Secretary, we have known each 
other a long time. I mean, are we winning now in your view?
    Secretary Shear. I think it is too early to tell, Mr. 
Chairman. We are doing our best.
    Senator McCain. Thank you.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Just to clarify the type of operations, have we conducted 
flyovers of these artificial facilities recently? When is the 
most recent flyover?
    Secretary Shear. I defer to the Admiral on that question, 
sir.
    Admiral Harris. Senator Reed, we have not conducted a 
flyover--a direct flyover--overfly of any of the reclaimed 
lands and territories that China has reclaimed recently.
    Senator Reed. That is another option that you have, but you 
have not exercised that option.
    Admiral Harris. You are correct, sir. We have a lot of 
options that are on the table.
    Senator Reed. Mr. Secretary, just stepping back a bit, one 
of the things that is happening in China now is extraordinary 
economic volatility, growth rates that are being challenged, 
which if you have an insight, if you do not, then let me know. 
This economic--and it may be long-term. It may be just 
something that is cyclic. Is it encouraging them or 
discouraging them when it comes to these policies in the South 
China Sea? Your insight. Is it something that--you know, they 
felt several years ago that they had sort of turned the corner, 
that their economic power was so great that they could begin to 
move forward. Are any of those questions being raised 
internally now in China about their capacity? Or the 
alternative would be are they going to double down because they 
have had economic problems at home, and therefore, we can 
expect them to be even more provocative? Any insights.
    Secretary Shear. Those are all extremely relevant 
questions, Senator. I am not an economist and I am not an 
expert on the Chinese economy, but I think to the extent that 
the Communist Party relies on economic performance for its 
legitimacy, then I would suspect it is very concerned about 
recent overall economic performance. I think we have to be 
alert to the possibility that the Chinese might use a problem 
in foreign affairs to distract people's attention from their 
domestic problems.
    On the subject of Chinese assertiveness, I think it is only 
natural for a country like China that is growing in wealth to 
turn to military modernization. I think Chinese military 
modernization and the growth of their defense budget has been 
extremely robust. We remain very concerned about the pace of 
growth in the Chinese defense budget and the lack of 
transparency and the overall effect that has on regional 
stability. Of course, as they modernize, one would expect them 
to become more assertive abroad, and that is just what we are 
doing and that is something that we are addressing with this 
regional security strategy.
    Senator Reed. Admiral Harris, as I indicated in my opening 
remarks, there is concern about North Korea. In fact, I recall 
when we met in Singapore, you expressed significant concern. 
Can you just briefly give us your latest update about North 
Korean activities? Also I might add since China shares a border 
with North Korea, are they at all being helpful or do they 
recognize the threats that are posed by the regime in North 
Korea?
    Admiral Harris. Senator, I believe, as I have said before, 
that North Korea is the greatest threat that I face in the 
Pacific as a Pacific Command commander. I think that you have a 
leader in North Korea who has nuclear weapons and is seeking 
the means to miniaturize them and deliver them 
intercontinentally, and that causes me great concern. He has 
got 20,000 to 30,000 artillery pieces within a range of Seoul, 
amounting to several hundred thousand rockets that place the 
28,000 American troops plus their families and the 700,000 
American citizens who live on the Korean peninsula in danger. 
So I view the threat from North Korea very seriously.
    I think that China's influence on North Korea is waning, or 
China does not have the influence on North Korea that it had in 
the past. So that is also an area of concern. There are many 
areas globally where we cooperate with China, and one of the 
areas in the past where we have received cooperation from China 
has been to mitigate the behavior of North Korea. We are not 
seeing that today. That causes me great concern.
    Senator Reed. So one of the initiatives that we have with 
the Chinese is not just checking their disregard for 
international law of the sea, et cetera, but also reengaging 
them to work together to face a very significant threat in 
North Korea. Is that accurate?
    Admiral Harris. You are correct, sir. I have been very 
critical of Chinese behavior in the last 2 years, but I have 
also been--I have acknowledged where China has been helpful. 
They have been helpful in removal of chemical weapons from 
Syria, in the counter-piracy efforts off the Horn of Africa, 
and the search for the Malaysia airliner MH370 off of 
Australia, and the support to the Philippines in the November 
2013 typhoon that hit that country. So we should acknowledge 
those good things that China has done. At the same time, I 
would be critical and hold them to account for those negative 
things they do.
    Senator Reed. Mr. Secretary, do you have a quick comment?
    Secretary Shear. Sir, if I may add to that. We exchange 
views with the Chinese on North Korea regularly. I did so in 
Beijing with my Chinese PLA counterparts just 10 days ago. The 
Chinese reiterated to me, as they have in the past, that their 
influence with North Korea is limited, particularly under the 
new regime. During the recent crisis related to the North 
Korean provocation on August 4, it was not clear to us that the 
Chinese had a lot of contact with the North Koreans or were 
able to significantly influence them.
    Senator Reed. Are they worried about that?
    Secretary Shear. I think they are.
    Senator Reed. Thank you.
    Senator McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Let us talk about assets, current and future. Admiral 
Harris, one of the DOD lines of effort in our Asia-Pacific 
maritime security strategy says by 2020, 60 percent of naval 
and overseas air assets will be home-ported in the Pacific 
region. Okay?
    Now, when you say that, right now in terms of our vessels, 
we have a fleet of 270. It should be 305. You are projecting 
now saying 60 percent of what it will be in 2020. What kind of 
figures are you looking at in calculating that?
    Admiral Harris. Senator, the numbers you cited are correct. 
We have in the 270 range now, and by 2020, we should have a 
little over 300 ships, around 310. So we are talking 60 percent 
of actually a larger number, not a smaller.
    Senator Inhofe. A larger number that we would anticipate 
would be available by that time, and I hope you are right.
    Now, the source of those have to come up through other 
commands. Is that correct? If you increase to 60 percent, you 
will have to be taking some assets away from EUCOM [United 
States European Command], CENTCOM [United States Central 
Command], and other commands. Correct?
    Admiral Harris. Right. Those commands now have assigned 
naval forces. Only the Pacific has forces that are assigned to 
the Pacific Command.
    Senator Inhofe. They are using those assets.
    Admiral Harris. That is correct.
    Senator Inhofe. Are you coordinating with those when you 
make these assumptions and predictions as to what we should be 
doing in 2020 with the combatant commanders?
    Admiral Harris. Yes, sir. As I have said before, the world 
gets a vote. So activities in Russia or other places could draw 
assets away.
    Senator Inhofe. Yes, I understand that.
    Admiral Harris. 60 percent of the Navy's combatants will be 
based in the Pacific at large by 2020.
    Senator Inhofe. Admiral Harris, you have been around for 
quite awhile. You might remember what I refer to, sometimes not 
too affectionately, the Battle of Vieques. At that time--that 
was during the Clinton-Gore administration. At that time, the 
only place that we could identify in the world for integrated 
training was the Island of Vieques. You might remember that we 
had this big fight right here in this room. I will never forget 
it. It was primarily driven by Vice President Gore to do away 
with the live range down there.
    Now, interestingly enough, those things that we said were 
going to happen to Roosey Roads [Roosevelt Roads Naval Station] 
and other assets there became a reality, and now they are 
begging us to come back.
    Nonetheless, the point I am making is I went all over the 
world looking for areas where you can have this kind of 
integrated training. Where are we today in terms of our areas 
that we have available to us for the type of training that you 
have to have?
    Admiral Harris. Senator, in the Pacific, we have integrated 
ranges. In Hawaii, the Pacific missile range facility is one of 
the finest in the world. In Guam. We are building new range 
facilities in the Guam operating area. These ranges, as you 
said, are vital to our ability to train. We are working with 
the countries involved, the states involved, and 
environmentalists that are involved in order to do this in the 
right way to satisfy all of the constituencies that are there 
and get our training done.
    Senator Inhofe. Okay. You talked, Secretary Shear, a little 
bit about some of our exercises that we have out there. RIMPAC 
[The Rim of the Pacific Exercise] is one of the big ones. 22 
nations were involved in that, 49 surface ships, 67 marines, 
2,200 aircraft, some 25,000 personnel. It is a great exercise. 
I understand that. Do we have the assets now to continue that 
type of exercise for the near future?
    Secretary Shear. I believe we do, sir. You are absolutely 
right that RIMPAC is a vital and important exercise not only 
for the U.S. but for the region. We believe we have the 
resources we need to continue conducting that.
    Senator Inhofe. Well, I would hope that would be the case.
    Thank you very much, Mr. Chairman.
    Senator McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for testifying today.
    Admiral Harris, in your testimony, you point out that we 
insist that all maritime claims be derived from naturally 
formed land features in accordance with international laws 
reflected in the Law of the Sea Convention. Are we in any kind 
of a disadvantage because we have not been a signatory to the 
Law of the Sea Convention?
    Admiral Harris. Senator, I believe we are at a disadvantage 
because we do not have the moral high ground that other 
countries who are signatories, including China and Russia, 
have. So when China makes these outrageous claims in the South 
China Sea, and the Philippines, for example, challenges one of 
those claims in the international tribunal for Law of the Sea, 
and we support the Philippines right to make that claim, at the 
same time we are not a signatory. So that looks kind of 
strange.
    When Russia makes these outrageous claims in the Arctic 
region in the Arctic Circle, and they tell us you have no 
standing on which to complain because you are not a signatory 
to the Law of the Sea, it puts us at a disadvantage.
    Senator Shaheen. Thank you. I certainly agree. I would hope 
that we would reevaluate our position and become a signatory 
with most of the rest of the world of the Law of the Sea 
Convention.
    Senator Reed raised the threat from North Korea. Secretary 
Shear, earlier this year, Admiral Gortney assessed that North 
Korea has the ability to launch an intercontinental ballistic 
missile that could be capable of hitting the United States from 
a mobile launcher, and we saw right before Secretary Carter 
visited Japan that they launched two short-range missiles. You 
talk about China and their waning influence with North Korea. 
Are there other measures that we ought to be taking with 
respect to North Korea? Should we have any sense of optimism 
about the recent overtures between North and South Korea where 
they seem to be talking a little more?
    Secretary Shear. Thank you, Senator. That is an important 
question.
    We certainly support the efforts by the North and South to 
conduct senior-level dialogue. As with past efforts to conduct 
such dialogue, I think we need to be very cautions in how we 
view the prospects. I view this current effort to be a direct 
outcome of the very robust position the ROK took in 
negotiations with the North at Panmunjom to resolve the issue 
precipitated by the North Korean provocation of August 4th. So 
I think it is very important that they have embarked on this 
effort, but we are just going to have to be very cautious. We 
support the ROK very strongly in these effort.
    More generally, our approach to North Korea is a 
combination of diplomacy and pressure, and as we go forward 
toward a possible North Korean missile launch, for example, we 
are going to be engaging our Six Party partners, and we are 
going to be considering what extra pressure we might put on 
North Korea should they decide to conduct that missile launch.
    Senator Shaheen. I assume you do not want to talk publicly 
about what those additional pressures might be?
    Secretary Shear. Well, we put a great many sanctions on 
North Korea, and further sanctions would be one possibility.
    Senator Shaheen. Did you want to add anything, Admiral 
Harris?
    Admiral Harris. Sure, Senator. I will just add that I think 
the key is to be ready for all outcomes regarding North Korea 
from a position of strength. So I tend to be a pessimist when 
it comes to dealing with the capabilities of other countries. 
So, again, it is best to be cognizant of all outcomes, and that 
is why things like ballistic missile defense are important and 
we strengthen South Korea's ability in their BMD [Ballistic 
Missile Defence] systems. I personally believe the THAAD 
[Terminal High Altitude Area Defense] on the peninsula is 
important as well, the terminal high altitude missile defense 
system.
    Senator Shaheen. There has been a lot of discussion today 
and earlier this year. Admiral Roughead, for example, noted 
that for the last decade, the United States has flown with 
impunity in Iraq and Afghanistan with no threat to anti-air 
weapons. He noted that our capabilities to do that will be 
threatened in the future as China has been able to field more 
capabilities.
    I guess I would first say do you agree with that 
assessment. Then can you talk about what that new technology 
that China is developing and our ability to stay ahead--how 
that is going to be affected by sequestration? I do not know 
which one of you wants to----
    Admiral Harris. Well, I will start. China fields a very 
modern military and they are growing in capability and 
capacity. We have a technological edge over them in almost 
every way, if not in every way. I am confident in our ability 
to take the fight to China, if it should come to that, and I 
certainly hope it does not.
    That said, we have to maintain that technological edge, and 
they are growing in their technological capability and that is 
of concern to me. I think we need to have fifth generation 
fighters, for example, and we need to have a lot of them. That 
is the Joint Strike Fighter, the F-35. We need to continue to 
upgrade our fourth generation fighters with fifth generation 
capabilities because we have a lot of them, and I think that is 
important.
    Senator Shaheen. Secretary Shear, I know I am out of time, 
but you just may want to add what you think, if cuts go back 
into effect for fiscal year 2016, what that would do to our 
ability to continue to have that technology.
    Secretary Shear. Well, we are certainly concerned about the 
possible effects cuts may have both on current operations and 
our ability to develop the new technologies we need to maintain 
our military dominance in the region. That is something that 
Secretary Carter is extremely interested in. Our defense 
innovation initiative is designed to develop those capabilities 
we are going to need to counter area access and denial 
strategies and to maintain our security already in the region. 
So we are committed not only to deploying our best capabilities 
to the region now, we are committed to devising the 
technologies we need to maintain our edge.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here today. We appreciate 
it very much.
    It was reported earlier this week that Japan will be 
providing $832 million in infrastructure aid to Vietnam and 
another $1.7 million worth of ships and equipment to them as 
well to help counter the rising of China. So I am very glad 
that our allies are improving their relationships to counter 
the Chinese aggression. Both Japan and Vietnam are key allies 
for us here in the United States, and developing that strong 
security and economic partnership with both Japan and Vietnam 
will allow us to better check China's aggression in that 
region.
    So for both of you, if you would, please, how will this new 
agreement between Vietnam and Japan improve that security 
situation in that region and also, under the Southeast Asia 
Maritime Security Initiative, what specifically is the 
Department doing to build partner capacity and capability in 
Vietnam and in other Southeast Asia nations?
    Secretary Shear. Thank you, Senator. That is a great point.
    We strongly support Japanese efforts to coordinate with us 
in building partner capacity, particularly with countries like 
Vietnam, the Philippines, and probably in the future Malaysia. 
This is something that I worked on with my Japanese colleagues 
while I was Ambass ador in Hanoi, and I am delighted to see 
that it has come to fruition for the Japanese side.
    We are interested in taking similar actions, as you state, 
in our maritime security initiative which is in the fiscal year 
2016 NDAA. That is a 5-year, $425 million program, and we 
greatly appreciate the committee's support on this effort. 
Under that initiative, we hope to not only improve physical 
capacity of our partners in, say, providing, for example, coast 
guard vessels, but we want to improve their institutional 
capacity. We want to improve their sustainability, and that is 
something very important with the Philippines. We want to 
improve their professionalism. So this would be a very broad 
program designed to raise the level particularly of the 
maritime law enforcement capabilities of our partners in the 
region.
    Admiral Harris. Senator, I was in Vietnam in my previous 
assignment as the Pacific Fleet commander, and I just returned 
from the Philippines a few weeks ago.
    I welcome Japan's overtures and their efforts to improve 
the capacity of both countries, Vietnam and the Philippines. I 
think Vietnam presents an ideal opportunity for us as we work 
more closely with them. I think that that is another indication 
of the response of the region to China's bad behavior in the 
South China Sea where countries that previously were at odds 
with us or actually leaders of the Non-Aligned Movement are now 
coming to us for assistance and are opening themselves up to 
us. That is one of the costs that China has to bear for its bad 
behavior in the South China Sea region.
    Senator Ernst. Very good. Thank you.
    You have mentioned, both of you, the Philippines several 
times, and they have proven to be a great ally, whether it is 
the Global War on Terror, hurricane humanitarian relief 
efforts, and so forth. Are there specific steps that we can 
take or should be taking with the Philippines at this time to 
further develop those relationships?
    Secretary Shear. You are right, Senator. More can be done. 
When the President was in Manila last year, he stated publicly 
that our commitment under the Mutual Defense Treaty to the 
Philippines is ironclad, that no one should have any doubt 
about the extent of our commitment under that treaty. We are 
working with the Philippines both in terms of--we are already 
working with the Philippines, even before we implement the 
maritime security initiative, to increase their capabilities to 
train and operate with them and to overall strengthen their 
ability to resist Chinese coercion.
    Senator Ernst. Thank you, gentlemen, very much.
    Thank you, Mr. Chair.
    Senator McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, gentlemen. Admiral Harris, thank you so much for 
the briefing you gave me last month in Honolulu.
    You mentioned, Admiral, that North Korea is the greatest 
threat that you face as Pacific Commander, and you noted that 
China's influence in North Korea is waning. Is there another 
country, i.e., Russia, that is stepping into this vacuum in 
relationships with North Korea?
    Admiral Harris. Senator, I do not know of any Russian 
overtures with North Korea other than what I have read in open 
sources where they have always had some relationships with them 
because of their histories.
    I believe that today the greatest threat I face is North 
Korea. North Korea today in my opinion is not an existential 
threat to the United States as Russia is. In the Pacific, as 
you know well, Russia has a long coastline. They have at least 
two major naval bases, including one for their ballistic 
missile submarines, two major air bases, and then a host of 
smaller operating bases in the Pacific. So these are things 
that I worry about as I look at the panoply of threats that the 
United States faces in the Pacific.
    Senator Hirono. Secretary Shear, we read recently that the 
Russians have recently approved significant infrastructure 
projects in what the Japanese call the ``Northern Territories." 
There have been numerous visits to these remote locations by 
Russian leaders. So they are becoming active in that part of 
the world, not to mention in the Arctic.
    I do share the concern that Admiral Harris raised that we 
are at a disadvantage by not being signatories to the Law of 
the Sea. Would you share that assessment?
    Secretary Shear. I agree with you, Senator, on the 
importance of ratification of the Law of the Sea. I agree with 
the Admiral on his assessment of Russian activities in the 
Asia-Pacific. Let me stress that our maritime strategy is 
designed to encompass Russia, as well as China, as well as 
other challenges in the region.
    Senator Hirono. What do you make of Russia's activities in 
the Northern Territories? Is this for our domestic consumption, 
or does it have further reaching consequences?
    Secretary Shear. Well, I confess, Senator, that I am not 
familiar with all the details on the kinds of infrastructure 
that Russia is building in the Northern Territories, but we 
support the Japanese claim to the Northern Territories. We 
would be concerned if the Russians used this infrastructure to 
further militarize or to bolster their military strength in the 
region.
    Senator Hirono. Admiral Harris, I was in Okinawa last month 
because, of course, part of the Indo-Asia-Pacific rebalance to 
this part of the world involves closing our Futenma facility. 
Most recently on Monday, Governor Onaga of Okinawa Prefecture 
proclaimed the he will proceed with canceling the landfill 
permit required for developing the alternative facility in 
Henoko. So for both of you, what does this proclamation mean 
for the Government of Japan and the Futenma replacement 
facility project that we need to get on with?
    Admiral Harris. Senator, we have a longstanding treaty, 
mutual security treaty, with Japan. Our obligation in that 
treaty is to provide the security for Japan. One of Japan's 
obligations under that treaty is to provide us bases from which 
to operate and do that. Okinawa is critical to our ability to 
defend Japan and our posture in the Asia-Pacific region. It is 
a Japanese national effort and a decision whether to override 
or overcome Governor Onaga's objections to the Futenma 
replacement facility. They are working on that and I have 
confidence that they will achieve their national aims because 
that is their obligations under the treaty for us.
    Secretary Shear. If I may add to that briefly, Senator. We 
greatly appreciate the support the Government of Japan has 
given to the effort to find a replacement for the Futenma 
facility. We appreciate their effort to get construction going 
for the Futenma replacement facility, and we were glad this 
week when we were informed by the Japanese Government that 
construction-related activities have begun at the Henoko site 
for the Futenma replacement facilities.
    Senator Hirono. So while there may be delays as a result of 
the Governor of Okinawa's actions, you expect that the Japanese 
Government will continue to proceed with the replacement 
facility.
    Secretary Shear. I do, Senator. I want to stress that as we 
move forward on construction of the Futenma replacement 
facility, we, of course, as we always do, will continue to 
consider Okinawan sensitivities with regard to the general 
issue of our presence and our operations in Okinawa.
    Senator Hirono. Thank you.
    Thank you, Mr. Chair.
    Senator McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, Admiral Harris and Secretary Shear, for all you 
do. Thanks for being here to answer our questions.
    Admiral Harris, you have said that we need to ratify the 
Law of the Sea Treaty in order to acquire some type of moral 
high ground particularly relative to Russia and China. I am 
having a hard time seeing why it is that a country like the 
United States that has used its power, its blood, and its 
treasure to protect navigation all over the world for 200 years 
has to, in order to gain some moral high ground, ratify this 
particular treaty. Can you help me understand that?
    Admiral Harris. Sure, Senator.
    The lack of signing the treaty does not affect our ability 
to be the strongest nation on the earth, but the lack of 
signing that treaty puts us at a disadvantage in discussions 
with most of the other countries of the world that have signed 
the treaty and moral standing, if you will. So we lose nothing 
by signing off on the treaty, but we lose a lot by not signing 
it.
    Senator Lee. What is the ``it" that we lose? Part of what I 
would ask in connection with that, you know, one of the claims 
is that it might help us solve the South China Sea territorial 
disputes. All the nations in the South China Sea, including 
China, that have coastline along the South China Sea are 
members of the treaty. They are all parties to the treaty. The 
Philippines has brought a lawsuit against China under the 
treaty, and China, as I understand it, has basically ignored 
it. So how does that mean that this fixes the problem if we 
suddenly ratify the treaty?
    Admiral Harris. Well, I do not think it would suddenly fix 
the problem, but as you said, the Philippines has brought a 
case against China in The Hague in the International Tribunal 
for Law of the Sea on two issues: one, on the veracity of the 
nine-dash line claim itself. Then the second issue is whether 
the tribunal has jurisdiction to even judge that case. We have 
supported the Philippines? right to take the claim to the 
international tribunal, and in fact, we have praised them for 
doing so. Yet, we are not a signatory to the treaty itself.
    If you shift to the Arctic, if you look at the outrageous 
claims that Russia has made in the Arctic Ocean, they are 
making those claims under their interpretation of the Law of 
the Sea Convention. When we criticize them for those claims, 
they say that we have no standing to do so. I would submit that 
most of the rest of the world, who also has signed off on the 
treaty, would probably share that opinion or at least part of 
it.
    On the other side, we have agreed as a policy to follow the 
precepts in the United Nations Convention on the Law of the 
Sea. So we have that for us, but we are not a signatory to it.
    Again, I would say that in my opinion we lose nothing by 
signing it and we lose a lot of moral high groundedness, if you 
will, by not signing it.
    Senator Lee. If we are following the precepts in the 
treaty, notwithstanding the fact that we have not ratified it 
and we, therefore, are not formally a party to it, I struggle 
with how that changes the moral high ground, particularly when 
I do not think there is any country on earth that has a greater 
claim to moral high ground, particularly when it comes to 
navigational issues, when it comes to naval issues, than the 
United States, which for 200 years has kept shipping lanes open 
and safe.
    Can you tell me what navigational rights, if any, does the 
Navy lack today that it would suddenly have if we were to 
ratify that treaty?
    Admiral Harris. Sir, the Navy would lack nothing whether we 
ratify the treaty or not. The United States would gain standing 
by signing off on the treaty.
    Senator Lee. How would that standing benefit us in a 
material way relative to our interests in that part of the 
world?
    Admiral Harris. Well, in some cases, under the--the 
convention sets up a framework for ocean exploration, for 
example, and it says that--we will not get into some of the 
real particulars--you go out to 200 miles and that is your 
exclusive economic zone, and then out beyond that is the open 
ocean zone, if you will. There are American companies today 
that will not explore out in that region beyond the 200-mile 
exclusive economic zone because they are not sure whether any 
competing claim will have an effect on them or whether they 
will lose in this international tribunal or other places. So I 
think that we lose an economic opportunity by not signing off 
on the treaty because it places in jeopardy the legal question, 
not the military or the strength question, but it places in 
jeopardy the legal question of what happens out beyond the 
exclusive economic zone. For our companies, they will gain an 
economic benefit from that.
    Senator Lee. I see my time is expired.
    I do not doubt the sincerity of your feelings on this. I 
would take issue with one aspect of what you said, though, that 
regardless of what benefits you might see from this, I would 
not say that signing onto a treaty is without any cost on our 
part without us giving up anything particularly, whereas here 
the treaty sets up a system that would, however incrementally, 
erode our national sovereignty.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Nelson?
    Senator Nelson. Gentlemen, thank you for your public 
service.
    Admiral, where we have had the near misses in the 200- mile 
area that China is challenging us both in ships and in 
airplanes, we have successfully avoided those near misses where 
they have challenged us. Do you want to give us some insight 
into what your instructions are to our pilots and our ship 
captains with regard to those kind of incursions?
    Admiral Harris. Sure, Senator. What I have told the 
component commanders, the Pacific fleet and Pacific air forces, 
to tell their pilots and crews to do is to continue to insist 
on our right to operate in international airspace and in 
maritime space. When challenged by Chinese fighter aircraft, 
our aircraft are to maintain professional flight profiles, 
predictable flight profiles, and we have means to record that 
activity and then we will see what happens. So the last time we 
saw a very dangerous event was in the middle of last year where 
the Chinese flew an aircraft over a P-8. They did a barrel roll 
over the top, which is a dangerous maneuver in acrobatic 
circles let alone in an intercept regime in the open ocean. We 
most recently have seen that again. I will give the system 
credit. For that intervening period of time, we have seen very 
few dangerous activities by the Chinese following that August 
2014 incident. I think that is a tribute to the mil-to-mil 
relationship and the political relationship where we have 
worked with the Chinese to come to an agreement on the maritime 
and in the air spaces for confidence building measures.
    Senator Nelson. Well, that is good news.
    Now, is it going to be all the more strained given the 200-
mile out from the China area? Now when you look at that map 
where they are filling in all of those islands and now they are 
claiming almost that entire ocean as theirs, are we going to 
see more and more of these incidents well beyond their 200-mile 
limit?
    Admiral Harris. Certainly the potential exists for more 
incidents. If they finish building the airfields, of which 
there is one there on Fiery Cross Reef on the side and up to 
two additional airfields of 10,000-foot length, then that gives 
me great concern in the South China Sea. You know, if you look 
at National Airport, for example, National Airport is only 
6,700 feet long, capable of landing any commercial airplane 
that we have, and China is building three runways of 10,000 
foot length, which is only 1,000 foot shorter than would be 
required to land the Space Shuttle. So I think that that gives 
me great concern militarily.
    They are also building deep water port facilities there, 
which could put their deep water ships, their combatant ships 
there, which gives them an extra capability.
    If you look at all of these facilities and you can imagine 
a network of missile sites, runways for their fifth generation 
fighters and surveillance sites and all of that, it creates a 
mechanism by which China would have de facto control over the 
South China Sea in any scenario short of war. These are 
obviously easy targets in war. They will be what we call in the 
military ``grapes," if you will. Short of that, they pose a--
militarization of these features poses a threat, and certainly 
it poses a threat against all other countries in the region.
    Senator Nelson. Speaking of those countries, to what degree 
are they vigorously stepping up with us to object to that kind 
of stuff?
    Admiral Harris. Well, I think they are stepping up to the 
limits of their capabilities. So if you look at the 
Philippines, for example, they are doing it in probably the 
best way. They are taking it to an international tribunal for 
adjudication. I do not know how the tribunal is going to act or 
decide, and if they decide in the Philippines? favor, as 
Senator Lee said, I do not know if China is going to follow 
that. It puts China in a quandary if the international tribunal 
rules against China and China is a signatory to UNCLOS. So it 
gives the Philippines at least a moral high ground to make a 
claim.
    The other countries are doing what they can also. You know, 
Chinese behavior in the South China Sea has enabled us to have 
a closer relationship with Vietnam, Indonesia, and Malaysia, 
and I think that is very important. Those are costs that China 
is having to expend because of its bad behavior in the South 
China Sea.
    Secretary Shear. Sir, if I could just reinforce what the 
admiral just said. I, of course, share the admiral's concern 
about the military implications of Chinese activities in the 
South China Sea. That is why we are calling for a halt to 
further reclamation, a halt to construction, and a halt of 
further militarization of those facilities. The Chinese have 
not yet placed advanced weaponry on those features, and we are 
going to do everything we can to ensure that they do not. This 
is going to be a long-term effort. There are no silver bullets 
in this effort. We are certainly complicating Chinese 
calculations already.
    If you pull back for a minute and look at our goals, which 
include safeguarding freedom of navigation and deterring 
coercion, I think we have made some gains in both these areas. 
We continue to operate freely in the South China Sea and we 
continue to prevent the Chinese from coercing our allies and 
partners into concluding deals that are not in their interests 
and not in our interests with regard to claims in the South 
China Sea.
    Senator McCain. That we freely operate in the South China 
Sea is a success? It is a pretty low bar, Mr. Secretary.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service.
    I think it is clear just from the testimony here and 
previous statements that we have a confused policy within the 
South China Sea with regard to the built-up islands. As you 
know, confusion can cause miscalculations. Let me just give you 
kind of the one example of it.
    We were in Singapore for the Shangri-La Dialogue, the 
Secretary and Senator Reed, Senator Ernst, the chairman. 
Secretary Carter I thought had a forceful statement at the 
time. You know it, we have seen it. We will fly, sail anywhere. 
Then he stated, quote, after all, turning an underwater rock 
into an airfield simply does not afford the rights of 
sovereignty or permit restrictions on international air or 
maritime transport. A pretty strong statement in a very 
critical place.
    Admiral Harris, you later stated I think at the Aspen Forum 
it is United States policy to afford a 12-mile limit around all 
the islands that are in the South China Sea, and it has been 
longstanding policy not because they are occupied or built up 
by China, but just in general. So to me that is a dramatic 
contrast. You have the PACOM Commander saying something very 
different than the Secretary of Defense. That is confusion.
    We obviously have three policymaking centers going on here, 
the uniformed military, DOD civilians led by Secretary Carter, 
and the White House. In your professional opinion, Admiral 
Harris, should we sail or fly inside the 12-mile area with 
regard to those islands as Secretary Carter stated we should?
    Admiral Harris. Senator, I believe that there is only one 
policymaking center, not three, and that runs through the 
Secretary of Defense and the President.
    Senator Sullivan. No, but I am asking your professional 
opinion as a military----
    Admiral Harris. I believe that we should exercise--be 
allowed to exercise freedom of navigation and maritime and 
flight in the South China Sea against those islands that are 
not islands.
    Senator Sullivan. Inside the 12-mile limit.
    Admiral Harris. Depending on the feature.
    Senator Sullivan. What about that one?
    Admiral Harris. That one, yes.
    Senator Sullivan. Have you or Secretary Carter asked the 
White House for permission to do that?
    Admiral Harris. Senator, I have given policy options--
military options to the Secretary, and I would leave it to the 
Secretary or the Ambassador to address----
    Senator Sullivan. What has the White House said when you 
have asked permission to go within the 12-mile zone of a 
feature like that?
    Secretary Shear. Senator, PACOM, along with the Department 
of Defense, are options-generating institutions, and the 
Secretary is particularly interested in options with regard to 
the South China Sea in general.
    Senator Sullivan. I just asked a simple question. What did 
the White House say if you asked for permission to go within 
inside the 12-mile limit? What did the White House say?
    Secretary Shear. Conducting that kind of freedom of 
navigation operation is one of the operations we are 
considering.
    Senator Sullivan. You are not answering my question. Did 
you ask the White House for permission to do this, and what did 
they tell you?
    Secretary Shear. Sir, I am not able to discuss current 
policy deliberations, but I can assure you that that is one of 
the options that the administration is considering.
    Senator Sullivan. Okay. I appreciate you just answering the 
question.
    Secretary Shear. Again, I am just not able to go into the 
details of policy----
    Senator Sullivan. Well, I think when the Secretary of 
Defense makes a definitive statement like that at a very 
important meeting of defense ministers in Asia and then we do 
not follow up on it, it undermines our credibility. That is 
something that we cannot afford anymore. Our credibility is 
undermined everywhere in the world, and we do it here.
    It would be good if you could give me an answer to that 
question. You are obviously dodging it right now.
    Secretary Shear. Sir, I would be delighted to give you the 
best possible answer, and I think that is that I am just not 
able to----
    Senator Sullivan. I want to turn real quick to the Alaska 
incident that the chairman mentioned. I thought our reaction 
was almost--it was immediate. It was muted. It was almost 
apologetic relative to the way the Chinese respond when we come 
within 12 miles of one of their islands.
    The President of the United States was in Alaska at the 
time. Do you believe that that was a coincidence that he was 
there, or do you believe that was a provocation that the 
Chinese were aggressively off the coast of Alaska when the 
President of the United States was visiting?
    Secretary Shear. Well, I am not in a position to describe 
Chinese thinking on this, but----
    Senator Sullivan. What is our analysis, either of you, from 
your perspective?
    Admiral Harris. Senator, they were conducting an exercise 
with the Russians in the northern Pacific. I believe--my 
opinion--is they went into the Bering Sea to demonstrate their 
capability to operate that far north, and then they decided to 
go home.
    Senator Sullivan. Do you think it was timed to coincide 
with the President of the United States----
    Admiral Harris. No, I do not think it was--my opinion. I 
mean, I am not going into any intelligence matters at all. They 
were having an exercise with the Russians, and I think that 
exercise was long-planned. Then they decided to go into the 
Bering Sea. They were near there anyway. Then they turned south 
and headed home. I think it was coincidental, but I do not know 
that for a fact. Their transit south was an expeditious 
transit, innocent passage through two Aleutian Islands. That is 
their right to do under international law, as is our right to 
do in international law wherever we operate.
    Senator Sullivan. Thank you.
    Mr. Chairman, I thought it was more of a provocation and a 
demonstration of their interest in the Arctic. I am not sure 
that this White House would recognize a provocation if it was 
slapped in the face, and we need to be aware of that. Thank 
you, Mr. Chairman.
    Senator Reed [presiding]. Thank you, Senator Sullivan.
    On behalf of the chairman, Senator Tillis.
    Senator Tillis. Thank you, Senator Reed.
    Admiral Harris, thank you for the time that I was allowed 
to spend with you out in headquarters. We got a very thorough 
brief, so I am not going to cover that ground, but I appreciate 
it and I know that in your public statement, or your opening 
statement, and in the conversation you covered some of it.
    I do want to get back and maybe build on questions that 
Senator Inhofe asked, and it had to do with the rebalancing 
where we are going out and saying that we are putting more 
assets as a percentage of the base into your area of command. 
We continue to miss the point that the base is shrinking. So 
part of what I am trying to do is get my head around a number 
of different variables that really let us measure the gap 
between China and the United States and our allies. You said 
when we were out there in the briefing that quantity has a 
quality of its own, so that right now we still continue to 
enjoy an advantage over the Chinese in terms of the assets we 
have in the region.
    When you start trending out to 2020 and beyond and you take 
into account that they may have more ships but their 
survivability does not compare to our own and the technology 
onboard does not compare to our own, at what point does the 
gap, if you were projecting assuming sequestration was going to 
be in place--I hope that that is not true, but let us assume 
that we are and the current plans for downsizing. At what point 
do we really reach a point to where it is a fair fight or we 
may be at a disadvantage? I do not want us to be in a fair 
fight, incidentally. So I want to know when it is and then at 
what point does it erode to where we have a quantitative or 
qualitative disadvantage against China.
    Admiral Harris. Yes, sir. I am all for having unfair 
fights, and I think that those fights out to be unfair in our 
advantage. I believe that if we are continued to be sequestered 
through 2021, 2022, and China continues the pace of its 
building, that their quantitative advantage will be significant 
in the mid-2020's.
    Senator Tillis. To overcome our qualitative advantage?
    Admiral Harris. I think we will always have a qualitative 
advantage if we maintain the trajectory we are on. We have 
better trained people, better equipment, and all of that. As 
you said, quantity has a quality all its own. Their weapons 
systems and their ships and airplanes bristle with weapons, and 
they probably view them--view the loss of those ships in a much 
different way than we would view the loss of our ships and the 
sailors on them. So I am worried about the pace of the Chinese 
buildup against the likelihood or the possibility that we will 
continue to be sequestered, and I think that will pose a very 
real problem for us in the 2020's. I think that we should look 
at that very closely, sir.
    Senator Tillis. Has there been work done to try and put 
that on paper? It may not be appropriate for an open setting, 
but to take into account our own unilateral capabilities in the 
region, the added capacity of our allies. That is another 
advantage that we share there. We have allies. They do not 
really. Has there been anything at that level that I can put my 
hands on to really understand that and then the trending out 
into the mid-2020's? Secretary?
    Secretary Shear. I think with regard to China, we put out 
the annual China military power report, and I think that is a 
good measure of where the Chinese have been and where they are 
going with regard to military modernization and their 
capabilities.
    Senator Tillis. Does that include a match-up against our 
projected capabilities assuming sequestration and the other 
policies that are the givens right now?
    Secretary Shear. It does not, sir.
    Senator Tillis. That is more or less what I am talking 
about to try and figure out where the gap is and where we 
really have to sound the alarm that we are letting the margin 
of advantage erode.
    Admiral Harris. Senator, the United States-China 
Commission, a body that is chartered by Congress, puts out an 
annual report that is exceptional in reading about China's 
capabilities. So I would commend that to you as well.
    Senator Tillis. Thank you.
    Admiral Harris. As far as the allies go, we have five 
treaty allies in the Pacific of varying degrees of capability, 
but whether they would be with us in every fight is a matter 
for them to decide in the fight at hand. So while I count the 
delta in numbers between us and China, I try not to count the 
quantity of assets our allies have because, depending on the 
situation at hand and their own national decisions, we might 
have to fight alone.
    Senator Tillis. Thank you.
    Senator Reed, if I may. I do not think it came up in the 
discussion, but either for the Ambassador or for Admiral 
Harris, to what extent do you believe that the trade 
agreement--in this particular case, the TPP [Trans-Pacific 
Partnership] and the partners there--is another key part of our 
military strategy down in the South China Sea and the Pacific?
    Secretary Shear. It is definitely a key part of our 
strategy, Senator. The TPP is not just economically beneficial, 
but it is strategic, and I think our partners understand that. 
The Vietnamese certainly understand it. When I was Ambassador 
in Vietnam through last year, the Vietnamese had an acute 
understanding of the strategic importance of TPP. It will be 
one of the ways in which we further knit together Southeast 
Asian integration and ASEAN strength. Not all ASEAN members are 
TPP partners, but TPP will certainly raise economic activity 
through the region, and countries like Vietnam are among those 
TPP partners which will benefit the most.
    Senator Tillis. Thank you.
    Senator Reed. Thank you, Senator Tillis.
    I have been informed that some of our colleagues are 
returning from a vote on the floor and would like to ask 
questions. That gives me the opportunity to ask a few questions 
until they return.
    So, Admiral Harris, we have spent a great deal of time 
talking about the South China Sea, but India and Australia are 
actually conducting joint maritime exercises in the Indian 
Ocean, actually anti-submarine exercises, and presumably that 
is because of the presence more and more often of Chinese 
submarines in that area.
    So can you describe these operations? Does this represent 
another challenge to the existing security arrangements in the 
area?
    Admiral Harris. Senator, we are seeing Chinese submarine 
deployments extend further and further, almost with every 
deployment. It has become routine for Chinese submarines to 
travel to the Horn of Africa region, the north Arabian Sea in 
conjunction with their counter-piracy task force operations. We 
are seeing their ballistic missile submarines travel in the 
Pacific at further ranges. Of course, all of those is of 
concern.
    With regard to India and Australia, Australia is one of our 
principal allies in the Indo-Asia-Pacific region, certainly an 
ally with tremendous capability. India presents a terrific 
opportunity for us, and one of the PACOM lines of effort is an 
improved mil-to-mil relationship with India. I am excited by 
the opportunities that we have with India by the work that the 
Secretary of Defense has done and Assistant Secretary of 
Defense Kendall has done with regard to the DTTI [Defense 
Technology and Trade Initiative], the defense initiative with 
India, to help them build up their military and help them build 
an aircraft carrier capability. So India presents a wonderful 
opportunity for us. They share out values and our norms, and 
one of my objectives is to improve that relationship with 
India.
    Senator Reed. This increased activity by Chinese 
submarines, both attack submarines and ballistic submarines--is 
that further stressing your submarine fleet in the Pacific, 
those ships that are available to you?
    Admiral Harris. It is. It is clearly stressing it. The new 
Russian submarines that are moving into the Pacific fleet 
area--their Pacific fleet area also places a stress on limited 
assets that we have.
    Senator Reed. So we have to continue, obviously, to keep a 
robust submarine fleet, both attack submarines and ballistic 
submarines.
    Admiral Harris. Absolutely.
    Secretary Shear. Sir, I would like to----
    Senator Reed. Please.
    Secretary Shear. If I may, I would like to add a little 
more on India.
    When President Obama was in India for meetings with Prime 
Minister Modi in January, they issued a joint strategic vision 
on the Indian Ocean and East Asia. We are in the process of 
devising ways of implementing that joint strategic vision. I 
was in India through last Saturday for discussions with my 
counterparts on how to implement that vision. We already have a 
robust program, a robust bilateral cooperation with the 
Indians. The admiral mentioned DTTI. We also have a carrier 
cooperation working group that has begun to meet. I think 
cooperation in carrier technology and design, as well as in 
carrier operations, offers us a terrific opportunity to improve 
our ability to work with the Indians.
    We will be looking at other ways of strengthening our 
partnership. We conduct an annual exercise, the Malabar 
Exercise, in which we and the Indians have just decided to 
include the Japanese. So that will be every year now. That will 
be a strong trilateral exercise in the region. We are looking 
at other ways, particularly in maritime domain awareness, to 
strengthen what we do with the Indians because we have very 
strong common interests.
    Senator Reed. Well, thank you, Mr. Secretary.
    Just a further point--I have Senator Ayotte. If she is 
ready, I would be happy to yield.
    Senator Ayotte. That would be great. If you want to finish 
your questioning----
    Senator Reed. No. Thank you. At this point, let me, on 
behalf of chairman McCain, recognize Senator Ayotte.
    Thank you, gentlemen.
    Senator Ayotte. I want to thank the ranking member. I 
appreciate it.
    First of all, Admiral Harris, I want to thank you for 
following through and visiting the Portsmouth Naval Shipyard. I 
know that everyone at the shipyard was very appreciative of 
your taking the time to see the incredible work being done 
there on our attack submarine fleet. So thank you. We are 
grateful.
    I wanted to ask in follow-up on some of the questions that 
you have been asked, Admiral. I think I understand from the 
testimony you have given, but I want to make sure that we are 
clear because I know that you have been asked about the Asia-
Pacific maritime security strategy, that China's artificial 
islands could at most generate a 500- meter safety zone and 
that, of course, the Department of Defense had released a 
statement saying that these features under international law do 
not generate any maritime zones because you believe that they 
are not legitimate. What this means in practice is that the 
Navy actually can, as you know, sail its ships within 500 
meters of these new land masses without violating the law 
because they are not legitimately there under international 
law.
    So I wanted to understand. Is the Navy sailing within 500 
meters of China's artificial islands at this point?
    Admiral Harris. No, ma'am.
    Senator Ayotte. Has the Pacific Command at least sent Navy 
surface ships within 12 miles of China's artificial islands?
    Admiral Harris. We have not.
    Senator Ayotte. So I guess the big question I think many of 
us are trying to get at at this point--and I do not know, 
Admiral Harris, whether you or Secretary Shear are the 
appropriate person to answer the question. Why not? Saying we 
are going to sail and fly where international law permits and 
then not doing it I am concerned leaves China with the 
impression that we are again going to say something but not 
follow through on our actions, and we are going to invite more 
aggression by the Chinese with the activities they have been 
taking that are in violation of international law and building 
these artificial islands. So I wanted to get your answer to 
that.
    Secretary Shear. Let me elaborate a little on what the 
admiral said. In recent years, we have challenged every 
category of Chinese claim in the South China Sea, as recently 
as this year. We will continue to conduct freedom of navigation 
operations in the South China Sea.
    Let me be clear on this point. Freedom of navigation 
operations are important for demonstrating our rights under 
international law, but freedom of navigation operation alone 
will not stop Chinese activities on these features. Preventing 
the Chinese from further militarizing those features is going 
to take a range of options, including freedom of navigation 
operations, and we are in the process of considering those 
options now.
    Senator Ayotte. Admiral, did you want to add to that?
    Admiral Harris. I will just add that PACOM presents 
military options to the Secretary, and those options come with 
a full range of opportunities in the South China Sea. We are 
ready to execute those options when directed.
    Senator Ayotte. So you are waiting for, obviously, the 
administration to make the call on that.
    Admiral Harris. Well, I mean, the freedom of navigation 
operation itself, as Secretary Shear said, is not a military-
only device. It has a military component obviously because the 
military executes it. It has other elements to it which are 
derived by the Secretary and the White House. So we are waiting 
for direction, and I am comfortable and confident that the 
options that we presented are being considered equitably.
    Senator Ayotte. Well, as I look at the situation, though, I 
appreciate, obviously, Admiral, that PACOM--as the Commander, 
you would be waiting for direction from the White House. As I 
look at it, the Chinese have to be looking at this situation 
saying the United States has declared that under international 
law this is not legitimate and that we have the right to, 
obviously, put our vessels in these areas, but the Navy has not 
sailed within 12 nautical miles of the Chinese artificial 
islands at this point. So I think they get it both ways. So 
they are saying we are saying one thing, but we are certainly 
not willing to address where we have a free right to navigate. 
So I hope that we follow up with our actions on our words on 
this, otherwise I fear that the Chinese will continue their 
actions because otherwise they think, hey, why not?
    My time is up, but I am going to submit for the record, 
Admiral Harris----
    Senator Reed. Senator, if you would like to take some more 
time.
    Senator Ayotte. Oh, thank you. I just had a follow-up on a 
totally different topic. Thank you. I appreciate it.
    I wanted to ask both of you on a different topic, which is 
about our POW-MIAs [Prisoner of War-Missing-in-Action] and our 
recovery efforts. This is a very important issue. I know 
Senator McCain and Senator McCaskill have been focused on this 
as well, and I have been appreciative of working with them. 
Obviously, the Department of Defense has reorganized its 
recovery efforts and stood up the new Defense POW-MIA 
Accounting Agency, the DPAA, in January of 2015, just the 
beginning of this year. One of the explicit purposes of this 
new organization is to effectively increase the number of 
missing service personnel accounted for from past conflicts.
    So I wanted to ask--of course, with your mission in PACOM, 
this is incredibly important because of our fallen heroes in 
the Asia-Pacific region including, according to DOD, over 
83,000 Americans are missing in action, 73,000 from World War 
II, 7,500 from the Korean War. In New Hampshire, we had someone 
who was able to welcome home the remains of his uncle. This 
really moved me because we know how important it is to family 
members to have that kind of closure. Also 1,600 from Vietnam, 
including 42 from my State.
    So, Admiral Harris, I know this came up in your advance 
policy questions. Can you give me an update on how DPAA is 
doing, what efforts we are taking? If both of you could let me 
know your commitment, as we look at this. China has a very 
important role here in helping us recover our fallen heroes. So 
could you help me on this?
    Admiral Harris. Yes, ma'am. As you stated at the beginning, 
the Joint POW Accounting Command, JPAC, the chain of command 
was changed, and now it is DPAA. The chain of command--now it 
no longer reports to PACOM. It reports directly to an agency 
under DOD.
    My responsibility as PACOM is to be in support of DPAA. The 
people in Hawaii who actually work at the facility there, the 
DPAA facility now, are the same people, and I think they are 
doing a great job. They just recovered a bunch of remains in 
one of the Pacific island battles, including the remains of a 
Medal of Honor recipient. PACOM's responsibility was to provide 
support for the airlift and all of that. I think that is a 
tremendous effort by them.
    I acknowledge the importance of going after every POW- MIA 
case that is extant. I think China--we need to continue to work 
with China and with North Korea and the other countries over 
which our fallen are from all the wars.
    Senator Ayotte. One thing I wanted to also clarify, 
Secretary Shear--and I appreciate, Admiral Harris, your 
commitment to this--is I understand we do have an agreement 
that was formalized with the Chinese. At this point, we have 
been somewhat stymied of getting information that they may have 
about Korean War POW camp records. I understand that Mr. 
Linnington, who is the director of the DPAA, has or will be 
interacting with the Chinese Government. I wanted to know what 
efforts the administration will be making in supporting his 
efforts to facilitate that communication, as Admiral Harris 
says, to be able to bring those, our soldiers, home.
    Secretary Shear. Ma'am, I strongly support the efforts of 
the DPAA to make the fullest possible accounting of our missing 
personnel. As Secretary to Vietnam, I participated. I visited 
recovery sites. I participated in recovery ceremonies. As 
Assistant Secretary, I support the efforts of the DPAA just as 
strongly. I am aware of Director Linnington's efforts in regard 
to China and more broadly. I support those efforts in 
discussions with my counterparts.
    Senator Ayotte. Thank you both for that commitment. I 
appreciate it. We do not want to ever forget and make sure that 
we can bring as much closure to our families and bring our 
soldiers home.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Reed. Thank you very much. Gentlemen, thank you for 
your testimony this morning, and on behalf of Chairman McCain, 
let me now adjourn the hearing. Thank you.
    [Whereupon, at 11:41 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]
                 Questions Submitted by Senator Wicker
                            quality of life
    1. Senator Wicker. In March 2012, I expressed concern to Admiral 
Willard that certain below standard dormitory buildings at Osan Air 
Base did not receive military construction funding in the fiscal year 
2013 budget. I was specifically concerned about significant plumbing, 
lead concerns, and mold issues at Building 746, Building 708, and 
Building 475.
    Will you provide the Senate Armed Services Committee and the Senate 
Appropriations Committee with an update on the overall status of 
enlisted dormitory housing at Osan Air Base as well as the specific 
status of Building 746, Building 708, and Building 475?
    Admiral Harris. Building 475 has been demolished and Building 746 
is unoccupied and scheduled for demolition. I am pleased to report that 
Building 708 has no record of lead or mold issues and its current HVAC 
and plumbing systems are fully mission capable. Additionally, all rooms 
in building 708 meet Air Force standards and are either occupied or 
ready for occupancy. The building is scheduled for a major overhaul in 
2017 as part of a $4M dormitory refurbishment.

    2. Senator Wicker. Also, what is the wing commander's assessment of 
the enlisted dormitory situation at Osan Air Base (active mission 
assigned personnel as well as support / tenant units)?
    Admiral Harris. Overall, the 51st Fighter Wing commander assesses 
the condition of the unaccompanied housing at Osan Air Base as adequate 
to good. The commander additionally assesses there is no difference in 
the quality of dorms between those assigned to the 51st Fighter Wing 
and those assigned to tenant units. For context, Osan Air Base has 35 
dormitories, including 33 for the Air Force and 2 assigned to the Army. 
Osan recently opened two new dormitories--a Senior NCO dormitory with 
277 rooms and an Airman dormitory with 156 rooms. The base has an 
extensive facility repair and renovation program, with at least one 
dormitory under renovation per year, and a very robust dormitory 
furniture replacement program. Some of the dormitories were constructed 
in the late 1980s, and some individual rooms are closed for 
maintenance, however, none of the rooms are substandard. Individual 
rooms continue to have normal wear and tear issues, and residents are 
relocated as needed. At this time, all major systems are functional. 
The wing commander stated they are heading in the right direction and 
expects significant improvements to continue. I will personally visit 
one of the dormitories when I next travel to Osan Air Base.

    3. Senator Wicker. Are there any plans to correct any substandard 
rooms remaining?
    Admiral Harris. Today, 100 percent of dormitory rooms on Osan Air 
Base meet Air Force standards. At any given time, roughly 5 percent of 
rooms are empty for maintenance. However, these issues are addressed 
directly and residents are not moved into a dormitory room until it is 
ready for occupancy. The 33 dormitories on Osan Air Base, totaling 
4,697 rooms, are managed through a robust 5-year plan incorporating 
both routine maintenance and major refurbishment. In total, there is 
$166M programmed for Osan Air Base dormitory projects over the next 10 
years, with $79M of those projects programmed within the next 5 years.
                                 ______
                                 
                   Questions Submitted by Senator Lee
                         modernization efforts
    4. Senator Lee. Admiral Harris, one of the themes of this week's 
Air Force Association conference that is taking place just down the 
road is the need to modernize our nation's air fleet to outpace the 
technological advances made by potential adversaries. In your opinion, 
looking at the current threat spectrum in the Pacific Command area of 
responsibility and the technological developments of militaries within 
that area, how important is it that the service branches are given the 
funding and flexibility to modernize and address these threats? If you 
and future PACOM commanders are not receiving, training with, and 
maintaining the weapons systems that are designed to counter the types 
of military technology you will be facing in the future, what kind of 
risks will you be taking?
    Admiral Harris. Funding, in many respects, defines our total 
military capability. I appreciate the support of Congress, and the 
opportunity to comment on this important issue. Continuous changes in 
fiscal assumptions due to budget uncertainty hamper our ability to 
plan. The result is poor use of resources. These uncertainties affect 
our people, as well as our equipment and infrastructure by reducing 
training and delaying needed investments. They directly affect our 
ability to pace threats by slowing investments in future capabilities. 
Services must have predictable and persistent funding to properly man, 
train, and equip a ready force. Additionally, Services must have the 
flexibility to develop and execute long-range programs for 
modernization while meeting current readiness needs. Funding 
uncertainties reduce warfighting capabilities, further reduce 
contingency response force readiness, and jeopardize our ability to 
meet the Defense Strategic Guidance. Uncertainty over funding 
ultimately risks the DOD's ability to fulfill USPACOM's commitment to 
the President's defense strategies. It jeopardizes our reach, and the 
lethality and technological edge we have today. It degrades our 
credibility as a reliable partner and imposes increased strain and risk 
to our service members.
                           regional commerce
    5. Senator Lee. Secretary Shear, you are well aware of the 
importance that Western Pacific maritime access is to U.S. commercial 
interests. More than $5 trillion worth of international trade traverses 
the South China Sea annually and the area is a significant site for the 
exploration and transportation of energy resources. What impact has 
Chinese action in the South and East China Seas had thus far on the 
free flow of commerce through that area, and what future actions could 
negatively impact this commerce?
    Mr. Shear. Maritime Asia is a vital thruway for global commerce, 
and it will be a critical part of the expected regional economic 
growth. The importance of the Asia-Pacific sea lanes for global trade 
cannot be overstated. Eight of the world's 10 busiest container ports 
are in the Asia-Pacific region, and almost 30 percent of the world's 
maritime trade transits the South China Sea annually. Approximately 
two-thirds of the world's oil shipments transit through the Indian 
Ocean to the Pacific, and in 2014, more than 15 million barrels of oil 
passed through the Malacca Strait per day.
    China is using a steady progression of small, incremental steps to 
increase its control over disputed areas East and South China Seas. 
This includes increasingly deploying the Chinese Coast Guard (CCG) to 
enforce its claims. For instance, China has used maritime law 
enforcement ships to restrict Philippine commercial fishing in the area 
of Scarborough Reef. The growing efforts of claimants, including China, 
to assert their claims has also led to an increase in air and maritime 
incidents in the recent years. Furthermore, China's land reclamation 
operations and infrastructure development over the last few years will 
enable it to establish a more robust power projection presence in the 
South China Sea. Broadly speaking, this has the potential to create 
uncertainty for not only the regional governments, but also for 
commercial entities operating in the region.

    6. Senator Lee. Admiral Harris, does the Chinese military have the 
ability to close down some of these maritime routes in the event of a 
conflict, and what do you think could spark such an action from the 
Chinese navy? How would the United States respond to such an event?
    Admiral Harris. [Deleted.]
                             cyber security
    7. Senator Lee. Admiral Harris, the Chinese and North Korean 
governments have both been involved in cyber-attacks and cyber-
espionage against the United States Government and American businesses, 
and we are aware that cyber warfare will only become further engrained 
into future military doctrines. As a Combatant Commander, with these 
specific cyber threats in your area of responsibility, what do you view 
as your role in detecting, defending against, and deterring cyber 
attacks on the military personnel and assets under your command? What 
resources and authorities are you in need of to enable you to address 
this threat more effectively and proactively?
    Admiral Harris. My role is to identify capability requirements that 
lead to military dominance in every domain, including cyber. To that 
end, I coordinate with United States Strategic Command (USSTRATCOM) and 
United States Cyber Command (USCC) in the employment of cyber warfare 
teams to deliver the needed capabilities in the context of a broader 
military effort. In ongoing operations, my role is ensuring that 
cyberspace operations are integrated, synchronized, and coordinated 
between USPACOM, Service components, the Defense Information Systems 
Agency (DISA), USSTRATCOM, USCC, and interagency partners who 
contribute authorities, capabilities, and insights critical to 
protecting infrastructure and information, detecting attacks, and 
deterring adversaries in cyberspace. I appreciate Congress' efforts to 
provide the resources that deliver technologies to provide strong, 
layered security and protection against the latest cyber threats. I am 
not aware of any unmet authority requirements that require 
Congressional attention at present. However, I urge Congress to 
continue to fund all cyber mission teams. While this may prove 
difficult under sequestration, it is vital to maintaining our ability 
to dominate in the cyber domain.
                             pacific pivot
    8. Senator Lee. Secretary Shear, one of the key elements of the 
military's strategy for shifting focus to the Pacific is having 60 
percent of our naval and air fleets deployed to that region by 2020. 
Are we currently on schedule to meet this goal, and if the conflict 
against Islamic extremism continues at the same or an increased pace 
over the next 5 years, what impact will that have on the manpower and 
equipment levels available for operations in the Pacific?
    Mr. Shear. The Department of Defense has worked to consistently 
implement President Obama's strategy of rebalancing toward the Asia-
Pacific region. Over the past six years, we have made our engagement 
and investments in the Pacific a top priority, even in the face of 
budget constraints. The rebalance is first and foremost a whole-of-
government approach, and we view our efforts as working hand-in-hand 
with the many political, economic, and development initiatives underway 
across the region.
    To answer your question, the Air Force has already rebalanced to 
station 60 percent of its overseas air assets in the Asia-Pacific and 
Navy is on track to home-port 60 percent of the fleet in the region by 
2020. Still, the hallmark of the rebalance is the emphasis on the 
quality, and not the quantity of our military presence in the Asia-
Pacific region. We are actively investing in the future capabilities 
that we will need in the Asia-Pacific, including high-end capabilities. 
We are pushing our most advanced existing technology to the Pacific and 
we're finding new ways to use it. We're adapting our overall defense 
posture in the Asia-Pacific to be geographically distributed, 
operationally resilient, and politically sustainable. We are increasing 
the tempo of training and exercises in the region. We are modernizing 
the alliances and reinforcing the partnerships that are the bedrock of 
everything we do in the Asia-Pacific. All of this continues to occur 
amid a context of continued engagement in Afghanistan, as well as 
emergent efforts to counter Islamic extremism in the Middle East and 
strengthen defenses in Europe in response to renewed Russian 
aggression.

    9. Senator Lee. Admiral Harris, the United States has longstanding 
alliances with many countries in eastern Asia from South Korean to 
India, and we participate in many military exercises, training events, 
military exchanges, and military assistance with these countries. What 
further benefit will the continuation of the pivot strategy offer the 
United States and our regional allies, considering the many engagements 
in which we are already involved?
    Admiral Harris. One of America's key asymmetric advantages is that 
we have allies, partners and friends in the Indo-Asia-Pacific. Our 
principal adversaries do not. The Rebalance is key to this. The 
Rebalance is a strategic, whole of government effort that recognizes 
the vital interest that Pacific nations play in our future. The world 
is inextricably interconnected--the best way to maintain security, 
prosperity, and prepare for the future security environment is to 
maintain the positive momentum of the Rebalance and actively shape our 
national interests. The Rebalance is building trust and deepening our 
partnerships in the region, and it is always in our interest to have 
more friends. Surveys and opinion polls in the region indicate a strong 
desire for continued U.S. leadership and engagement in the region.
    In recent years we have developed new or enhanced security 
relationships with most countries in the region, helped in no small 
part by our being a trustworthy alternative partner to offset China and 
North Korea's coercive and often unpredictable behavior. We have also 
helped improve the effectiveness of regional organizations and 
associated working groups under the ASEAN Defense Ministers Meeting 
Plus and ASEAN Regional Forum. These achievements, resulting from 
redoubled efforts under the Rebalance, are enhancing regional security 
and enabling regional militaries to contribute more in providing 
security in a region where complexity continues increasing.
    As an example, our friends and allies across the Indo-Asia-Pacific 
are investing their own resources toward increased United States 
access. Of the four largest United States military construction efforts 
since the end of the Cold War--all in the Asia Pacific--Korea and Japan 
are contributing 82 percent of the cost: $30 Billion of $37B (Camp 
Humphreys, Korea; MCAS Iwakuni, Japan; Futenma Replacement Facility 
Okinawa Consolidation; Guam). Elsewhere Japan is providing 97 percent 
of Defense Policy Review Initiative (DPRI) construction funding in 
Japan ($16.9 B of $17.4B). U.S. investment in regional security is 
being reciprocated further by growing investments in U.S. military 
systems such as AEGIS ships, C-17, V-22, P-8, AH-64, UH-60, UH-72 and 
other aircraft, and other major hardware acquisitions that come with a 
decades-long partnership ``tail'' in training and logistics 
investments. The Rebalance is a sound investment that is paying 
dividends in terms of relationships, access, interoperability, 
stability and prosperity.
    China continues its unprecedented military modernization, as 
demonstrated in South China Sea land reclamation and military 
acquisitions. North Korean nuclear development and provocations 
continue. Global terrorist networks are evolving faster than our allies 
and partners can counter them. Given the expanding threat, there is 
growing demand from allies, partners, and regional institutions such as 
the Association of South East Asian Nations (ASEAN) for engagement, 
partnering, training, and leadership from the United States. We must 
maintain our capacity to lead, further strengthen essential U.S. 
relationships, and shape the security environment. The Rebalance 
fulfills that need and is vital to our strategic future.

    10. Senator Lee. Secretary Shear, how have the Chinese reacted so 
far to our pivot strategy in the Pacific and the Asia-Pacific Maritime 
Security Strategy? Do they perceive this as a threat, and as we 
continue towards PACOM's force structure goals, what further reaction 
can we expect from the Chinese?
    Mr. Shear. For the past 15 years, China's military has pursued a 
comprehensive military modernization program focused on increasing its 
capabilities to conduct missions on its periphery and beyond to protect 
its perceived national interests and deter adversaries. We can expect 
this trend to continue for the foreseeable future, particularly because 
China's leadership views the strengthening and modernization of the 
People's Liberation Army as essential to China's broad objectives of 
achieving great power status.
    The U.S. presence in the region has been a stabilizing factor since 
the end of World War II. Our presence is welcomed in the region by many 
because the military steps we are taking as part of the Rebalance to 
the Asia-Pacific region are intended to reinforce a rules-based 
regional order that is conducive to stability and prosperity for 
everyone in the region, including China. China's aspirations and the 
United States enduring presence in the Asia-Pacific region are not 
incompatible. We recognize that the United States-China relationship, 
as well as the military-to-military relationship, is characterized by 
elements of both competition and cooperation. Since 2012, China has 
responded positively to military-to-military engagement, resulting in 
improvements in the pace and scope of sustained and substantive 
exchanges that focus on risk reduction, as well engagements that expand 
our ability to cooperate in areas of mutual interest, such as 
counterpiracy, humanitarian assistance, and disaster relief. We will 
continue to focus our military-to-military engagements in ways that 
ensure that China acts in a manner consistent with international norms, 
resulting in outcomes that best serve the interests of the United 
States and our allies and partners in the region.
    As the United States builds a stronger foundation for the military-
to-military relationship with China, we will continue to monitor 
closely China's evolving military strategy, doctrine, and force 
development. Furthermore, we will continue to work with our allies and 
partners in the region to sustain the regional rules-based security 
order that has resulted in unprecedented peace and prosperity in the 
region for the past 70 years.

    11. Senator Lee. Secretary Shear, how do you account for the 
possibility that such a large shift in military resources could inflame 
already tense regional problems? What will be our reaction if the 
Chinese military increases its military build-up in an attempt to 
offset our efforts?
    Mr. Shear. The relationship between the United States and China is 
the most consequential in the world today. Pursuing a productive 
relationship with China is a critical element of the larger United 
States strategy for the Asia-Pacific region. The United States is a 
Pacific power that has vital interests in region, which we will protect 
through critical investments in our own capabilities, and the 
investments of our allies and partners.
    United States leadership in the Asia-Pacific region is grounded in 
our treaty alliances with Japan, South Korea, Australia, Philippines, 
and Thailand. We have been modernizing these essential partnerships to 
tackle a full range of regional and global challenges. These alliances 
are powerful platforms for advancing a rules-based international 
system. The United States insists upon and will continue to underscore 
its fundamental national interest--one shared by our allies and 
partners--in preserving freedom of navigation and commerce through some 
of the world's busiest sea lanes. The United States will continue to 
sail, fly, and operate in accordance with international law in pursuit 
of our interests and those of our allies and partners.
    We also have been working across the region to invest in regional 
institutions to strengthen the development of an open and effective 
regional architecture with the capacity to resolve conflict, support 
development and economic prosperity, advance human rights, and ensure 
that all countries in the region play by the same rules. United States 
support and participation in the Association of Southeast Asian Nations 
(ASEAN), the Asia-Pacific Economic Cooperation (APEC) and the East Asia 
Summit (EAS), and the Pacific Islands Forum (PAF) groupings are 
examples of our commitment to managing and reducing regional 
challenges.
    The United States-China relationship is an integral component of 
our overall approach to the Asia-Pacific region. We recognize that 
there are elements of cooperation as well as competition in the 
relationship, which we will seek to manage through sustained and 
substantive dialogue and practical engagement in areas of mutual 
interest. The points of friction between China and the United States 
cannot be ignored, and we will continue to deal forthrightly with our 
differences.

    12. Senator Lee. Secretary Shear, the United States officially does 
not take positions on sovereignty issues with respect to territorial 
and maritime disputes in the East and South China Sea. However, we are 
obligated by defense treaties to a number of countries that are 
currently involved in territorial disputes in this region. How would 
the United States respond to a hypothetical conflict over the Senkaku 
Islands, given our treaty obligations to Japan?
    Mr. Shear. United States policy toward the Senkaku Islands, which 
was clearly stated by President Obama in April 2014, has not changed: 
Article 5 of our security treaty applies to the Senkaku Islands because 
they are under the administrative control of Japan. We consult 
regularly with our Japanese allies, and will oppose any attempts to 
change the status quo unilaterally.
                                 ______
                                 
                  Questions Submitted by Senator Cruz
                      chinese missile capabilities
    13. Senator Cruz. In his opening remarks, Chairman McCain said that 
the United States needs to ``think anew about deterrence'' in our 
relationship with China. This admonition is especially timely in light 
of China's recent military parade, an event which the People's 
Liberation Army used to unveil a number of new and updated ballistic 
missiles. Among them was the DF-26C, an Intermediate Range Ballistic 
Missile (IRBM) with a range of 3,000-4,000 km. Although concealed with 
a tarp during the rehearsal, reports indicate that the DF-26C appears 
to have three stages and a lengthy nose-cone. The latter feature 
suggests that the warhead may have a terminal guidance system, 
increasing its target accuracy. If true, this also introduces the 
possibility that China could introduce a fourth modification of the DF-
26 similar to their ``carrier killer'' ballistic missile, the DF-21D. 
In 2012, The Diplomat highlighted the difficulty of AEGIS ballistic 
missile defense interceptors to engage a DF-21D in its midcourse flight 
due to possible decoys and in its descent phase due to its ability to 
maneuver at high speed. China reportedly tested the DF-21D successfully 
in 2014. The potential that the DF-26 now has a modification with 
terminal guidance introduces the troubling possibility that the United 
States is not only losing the anti-access/area denial competition in 
the South China Sea, but is actually ceding additional maneuvering 
space to the PLA.
    Are you concerned about the ability of U.S. missile defenses to 
intercept the DF-21D and DF-26C throughout their course of flight?
    Admiral Harris. [Deleted.]

    14. Senator Cruz. In Chapter 2, section 2 of the 2014 Annual Report 
to Congress, the United States-China Economic and Security Review 
Commission notes the observation of Hans Kristensen, director of the 
Nuclear Information Project and the Federation of American Scientists, 
that the Department of Defense (DOD) began reducing information 
regarding an estimate of the number of ballistic and cruise missiles in 
the 2010 ``Military and Security Developments Involving the People's 
Republic of China'' report to Congress. By 2013, this estimate had been 
completely removed from the annual report.

    Why did the Pentagon begin removing its estimates of China's 
ballistic missile capacity in its 2010 report?
    Mr. Shear. The Department of Defense's annual report to Congress on 
``Military and Security Developments Involving the People's Republic of 
China'' continues to summarize the size, location, and capabilities of 
Chinese strategic land, sea, and air forces. This report is provided to 
Congress in both classified and unclassified form.
    Details on China's missile systems in the Department's report have 
decreased as China has stopped publishing accurate figures on the 
numbers and types of its ballistic and cruise missiles. There are 
various unclassified estimates of China's missile inventory we could 
draw from, but those sources are not authoritative and may be 
inaccurate. The Department aims to provide the most accurate 
information possible to Congress; however, we must also weigh the 
potential risks to intelligence sources and methods should we reveal 
details regarding our knowledge of specific numbers of China's missile 
systems.
    The 2015 annual report noted that China possesses at least 1,200 
short-range ballistic missiles (SRBMs) in its inventory, and has an 
arsenal of 50-60 inter-continental ballistic missiles (ICBMs). The 
report summarizes the estimated range, key developments, and 
implications of China's ballistic missile systems.
    The report also describes China's investment in anti-ship cruise 
missiles (ASCMs) and land-attack cruise missiles (LACMs). ASCM and LACM 
systems are further described by system type, operating units, and 
delivery platforms.

    15. Senator Cruz. Shouldn't Congress have an unvarnished estimate 
of China's military capabilities, particularly given their recent 
aggressive stance in the South China Sea and willingness to intrude 
into United States territorial waters off the coast of Alaska?
    Mr. Shear. In addition to recurring testimony before defense 
oversight committees by senior Department of Defense officials, DOD 
provides an annual report to Congress on ``Military and Security 
Developments Involving the People's Republic of China.'' This report is 
produced in partnership by the Office of the Secretary of Defense for 
Policy and the Defense Intelligence Agency. We coordinate the report 
with the Departments of State, Homeland Security, Energy, Commerce, and 
Treasury, and with the Intelligence Community and the National Security 
Council staff, so it reflects views that are held broadly across the 
United States Government.
    We intend the report to be factual, descriptive, and analytical. We 
try not to speculate, but we let the facts speak for themselves. This 
report highlights China's military strengths and weaknesses, as well as 
the opportunities and the challenges that we see going forward.
    Although the most recent Chinese movement of ships off the coast of 
Alaska occurred outside the period covered by the 2015 annual report to 
Congress, the 2015 DOD report did present a special topic section on 
``China's Reclamation in the South China Sea.'' That section described 
the size and potential uses of the reclaimed sites, and noted that 
``most analysts outside China believe that China is attempting to 
change facts on the ground by improving its defense infrastructure in 
the South China Sea.''
                     red flag and rimpac exercises
    16. Senator Cruz. On June 25, Chinese Defense Ministry spokesperson 
Yang Yujun expressed strong concerns at a monthly briefing about an 
amendment I introduced with Senators Inhofe and Wicker that called on 
DOD to invite Taiwan to Red Flag military exercises. In Yang's words, 
``We are firmly opposed to any country's military contact with Taiwan. 
Our position is consistent and clear.'' I believe that further military 
integration with Taiwan is imperative in reassuring our friends and 
allies and deterring the PLA from using force against Taiwan. Red Flag 
affords Taiwan an opportunity to participate in military exercises that 
will improve their self-defense capabilities and their ability to 
operate jointly with the United States, should that ever be required.
    Do you plan to invite Taiwan to participate in the 2016 RIMPAC 
exercises? Do you plan to invite China?
    Admiral Harris. (U//FOUO) We invited China to RIMPAC 2016, but 
reserve the right to cancel that invitation should our relationship 
deteriorate. We did not invite Taiwan to RIMPAC 2016, nor do we plan 
to. The nature of the relationship between United States Pacific 
Command and Taiwan's armed forces is not dependent on whether or not 
Taiwan is part of RIMPAC. Having said that, we will continue to 
maintain and deepen our strong military relations with Taiwan through 
continued exchanges and engagements in accordance with United States 
policy and the Taiwan Relations Act. I am a firm believer in, and 
supporter of, the Taiwan Relations Act.

    17. Senator Cruz. Does DOD intend to invite Taiwan to participate 
in Red Flag exercises?
    Mr. Shear. The United States Government's approach to Taiwan has as 
its foundation the three joint United States-China Communiques and the 
Taiwan Relations Act. This approach has been a constant for eight U.S. 
administrations and will not change. Maintaining and deepening strong 
unofficial relations with Taiwan is an important part of United States 
engagement in Asia, a region of great and growing importance to the 
United States.
    The Department of Defense engages closely with its Taiwan 
counterparts to support Taiwan's development of defensive capabilities 
to deter and, if necessary, resist coercion today and in the future. 
The United States has made available to Taiwan defense equipment and 
services in order to enable the island to maintain a sufficient self-
defense capability.
    This includes reviewing training opportunities for Taiwan to 
improve and maintain its readiness and operational capabilities. The 
Taiwan Air Force currently participates in several realistic and 
complex training scenarios each year at Luke Air Force Base with its F-
16 aircraft that are designed to exercise defense counter-air tactics, 
formation flying, and attacks under simulated combat conditions. We do 
not believe it is necessary to invite Taiwan to Red Flag exercises at 
this point in time.
    We believe this tailored training meets Taiwan's needs. We will 
continue to reassess Taiwan's capabilities and readiness levels to 
ensure that it receives the necessary training to maintain an effective 
defensive capability.
                        chinese land reclamation
    18. Senator Cruz. Admiral Harris, when asked in Thursday's hearing 
for your opinion on whether the United States should sail or fly within 
12 nautical miles of China's artificial islands in the South China Sea, 
you answered in part that the decision would ``depend on the feature'' 
of the land formation, referencing ``islands that are not islands.'' 
The Asia Maritime Transparency Initiative lists seven Chinese outposts 
within the Spratly Islands that exist on reclaimed reefs, specifically 
Cuarteron Reef, Fiery Cross Reef, Johnson South, Hughes Reef, Gaven 
Reef, Mischief Reef, and Subi Reef.
    What is DOD's definition of what is and isn't an island?
    Admiral Harris. The Department of State, through its Office of the 
Geographer, establishes U.S. policy on the legal status of geographic 
features. The DOS-Office of the Geographer has not yet released an 
official position on the South China Sea features. There are certain 
features, such as Mischief Reef, that we believe were originally below 
water at high tide, prior to China's massive reclamation. If that 
feature was originally underwater, then we can legally conduct normal 
operations, such as overflight and navigation in the vicinity of the 
features, including within 12 nautical miles. For other features that 
are legally characterized as either islands or rocks, we could not 
overfly within 12 nautical miles, but we could sail within 12 nautical 
miles in innocent passage.
    The DOD definition of an ``island'' conforms to the definition 
stated in 1982 United Nations Convention on the Law of the Sea 
(UNCLOS). Although the U.S. is not a party to UNCLOS, it considers the 
navigation and overflight provisions reflective of customary 
international law and therefore acts in accordance with UNCLOS. 
According to Article 121 of UNCLOS, an island is ``a naturally formed 
area of land, surrounded by water, which is above water at high tide.'' 
An island is capable of sustaining human life and the status of a 
feature is determined by its natural formation and not by man-made 
alterations. An island is entitled to a territorial sea, an exclusive 
economic zone and a continental shelf. A rock is defined in Art 121 as 
a natural feature above water at high tide, which cannot sustain life 
on its own. A rock is entitled to a territorial sea, but not an 
exclusive economic zone or continental shelf. A low-tide elevation is a 
naturally formed area of land which is surrounded by and above water at 
low tide but submerged at high tide. A low-tide elevation is not 
entitled to a territorial sea, exclusive economic zone or continental 
shelf. Article 60 of UNCLOS clearly states that artificial islands, 
installations, and structures do not possess the status of islands and 
have no territorial sea of their own. Therefore DOD has the legal right 
to conduct normal operations within the vicinity of reclaimed features 
which were originally underwater.

    19. Senator Cruz. Do these seven reclamation sites fall under DOD's 
definition of an island?
    Admiral Harris. The Department of State, Office of the Geographer 
is responsible for determining the official U.S. position with respect 
to the legal characterization all features, including reclamation 
sites. The U.S. currently takes no official position on the legal 
character of these seven reclamation sites, however we do not believe 
that all of them meet the legal definition of an island. We encourage 
the Department of State to take a position on the status of these 
reclamation sites and other features in the South China Sea. I would 
like to reiterate my point in question 18 that as a matter of 
international law, artificial islands and structures are not entitled 
to a territorial sea. We will conduct military operations in the 
vicinity of all features in accordance with international law.
                                 ______
                                 
                 Questions Submitted by Senator Shaheen
                           electronic warfare
    20. Senator Shaheen. Assured communications, particularly for 
command and control (C2) networks, is critical for our maritime forces. 
Our adversaries are becoming increasingly capable in electronic warfare 
technology, threatening our military effectiveness. Can you comment on 
the need to upgrade systems like the Link-16 with more advanced and 
adaptable anti-jam technologies while maintaining interoperability with 
legacy radios?
    Admiral Harris. It is critically important; highly resilient, anti-
jam encrypted communication technologies are necessary for command and 
control of forces operating within the air, land, and maritime domains 
and today's systems do not sufficiently repel efforts by adversaries to 
jam, exploit, or penetrate our legacy networks. Since Tactical Data 
Links (TDL) 16 and 22 are both based on technology developed decades 
ago, there is a pressing need to update or replace their technologies 
with new ones that will continue to be jam-resistant, provide 
cryptographic protection, and remain interoperable.
                                 ______
                                 
                 Questions Submitted by Senator Hirono
                              philippines
    21. Senator Hirono. The Philippines is one of the United States 
defense treaty allies in the Asia-Pacific and also a party to the South 
China Sea dispute with China. United States and Philippine armed forces 
regularly conduct joint land and sea exercises to boost security 
cooperation. How does the United States alliance in the Philippines fit 
in the overall maritime security strategy in the Asia-Pacific?
    Admiral Harris. The United States-Philippines Alliance is a 
cornerstone of the Indo-Asia-Pacific security architecture, 
demonstrating the United States's commitment to peace and security for 
over 65 years, and it has a bright future in regional security. Through 
our historically close ties, we have developed a strong and cooperative 
relationship, which enables United States training and operational 
access to the South China, Sulu and Celebes Seas. I appreciate the 
Congress' creation of the Southeast Asia Maritime Security Initiative, 
which will significantly enhance our partnership by enabling greater 
investment in the regional security architecture, including 
improvements to the capabilities of the Armed Forces of the Philippines 
(AFP). The AFP's modernization will not only contribute to the security 
of the Philippines, but also provide substantive support and 
collaboration toward a regionally shared Maritime Domain Awareness. 
Furthermore, we continue to applaud and encourage the Philippines' use 
of international courts and arbitration to resolve maritime disputes.
    Mr. Shear. A key element of DOD's approach to maritime security in 
Southeast Asia is to work alongside capable regional allies and 
partners. Through initiatives such as the Enhanced Defense Cooperation 
Agreement (EDCA) with the Philippines, the Department will be able to 
increase our routine and persistent rotational presence in Southeast 
Asia for expanded training with the Philippines and other regional 
partners. We are conducting more than 400 planned events with our 
treaty ally, the Philippines in 2015, and there is broad regional 
agreement on the importance of improving maritime security and maritime 
domain awareness capabilities in an effort towards promoting peace, 
stability, and prosperity in Asia. In conjunction with the Department 
of State and the United States Coast Guard, we have dramatically 
expanded our maritime security assistance and capacity building efforts 
in recent years. In the Philippines, the Department is providing 
coastal radar systems and assisting the Department of State with naval 
maintenance capacity building as well as providing interdiction 
vessels, naval fleet upgrades, communications equipment, and aircraft 
procurement. The Department is also working with our allies, Japan and 
Australia, in a coordinated fashion to maximize the efficiency and 
effectiveness of our maritime security capacity building efforts in 
Southeast Asia, beginning with the Philippines.

    22. Senator Hirono. Could you elaborate on how our recent sales of 
patrol vessels to the Philippine navy will enhance their capabilities 
and improve regional security?
    Admiral Harris. The recent sale of Hamilton Class patrol vessels to 
the Philippines provides an initial credible maritime security 
capability, enabling the Philippine Navy to monitor and respond to 
maritime incidents and crises in their territorial waters and economic 
exclusion zone (EEZ). In tandem with their improving maritime domain 
awareness assets and sensors, Hamilton Class patrol vessels will extend 
their patrol range and improve situational awareness within their EEZ 
and adjacent waters enabling them to better protect their interests. In 
fact, I support the sale of a third Hamilton Class patrol vessel to the 
Philippines, should the opportunity arise. I had the opportunity to 
visit their new National Coast Watch Center (NCWC) in Manila (funded 
largely by DTRA) and was impressed by the potential that exists there. 
I believe that linking the Hamilton Class cutters to the NCWC will 
dramatically improve Maritime Domain Awareness.
    Mr. Shear. The two United States Coast Guard High-Endurance Cutters 
(WHEC) that the Department of Defense transferred as excess defense 
articles to the Philippines in 2011 and 2013 supported a major non-NATO 
treaty ally and key alliance partner in the Asia Pacific region. The 
cutters' patrol capabilities have enhanced the Philippines' ability to 
contribute to humanitarian assistance and disaster response (HA/DR), 
respond to maritime domain awareness concerns, enhance interoperability 
with United States forces, and strengthen regional relationships by 
participating in multinational exercises. The United States and the 
Philippines also share the goal of ensuring freedom of navigation and 
unimpeded lawful commerce. By allowing the Philippines to patrol its 
Exclusive Economic Zone, the WHECs also support these shared principles 
and contribute to regional security. A combination of foreign military 
financing and Philippine national funds are being used to continue to 
enhance the capabilities of the WHECs.

    23. Senator Hirono. In July I introduced a bipartisan bill that 
would include the Philippines in the group of allied nations eligible 
for expedited consideration provided by law of foreign military sales. 
Currently that group includes just NATO, Japan, Australia, New Zealand, 
South Korea and Israel. Would you agree that the Philippines should be 
included in this group?
    Admiral Harris. Yes. I strongly support adding the Philippines to 
the select group of allied nations eligible for expedited foreign 
military sales (FMS). The Philippines has been a staunch ally in 
enhancing regional security and supporting PACOM regional presence. 
Reducing United States Government processing time for government to 
government sales and commercially licensed arms sales would deepen our 
relationship and further improve our military ties, while accelerating 
progression in the capabilities of an important ally and partner.
    Mr. Shear. Yes, the Department of Defense would fully support 
including our Philippine ally in the category of NATO countries for the 
purpose of congressional notification for foreign military sales. 
Although the Philippines is already designated a major non-NATO ally, 
inclusion in the NATO category would enable the Department, working 
with the State Department, to process Philippine foreign military sales 
cases more quickly by both increasing the threshold for congressional 
notification and shortening the timeframe of the required notification. 
Further, inclusion in this category would demonstrate the value and 
strategic importance of our Philippine ally.
                              guam energy
    24. Senator Hirono. On July 14th, the Energy and Natural Resources 
Committee on which I serve held a hearing to examine the energy 
challenges that come from living in places that are not connected to 
the rest of the country, including Hawaii, Alaska, and the U.S. 
Territories. We heard from Robert Underwood, the Former Guam Delegate 
to the House of Representatives. He explained that Guam relies on 
imported petroleum to serve most of its energy needs and that the local 
power companies are challenged to keep power constant. I visited Guam 
last month and heard similar concerns. What plans does the Navy have to 
enhance the resilience of the energy infrastructure needed to support 
the expanded military capabilities needed to develop Guam into a 
strategic hub in the region?
    Admiral Harris. I appreciate the investments that Congress 
continues supporting on behalf of our national security interests in 
Guam, and I welcome every improvement that mutually benefits Guam and 
DOD. To that end, the Navy continues working with Guam Power Authority 
through master planning and partnerships that enhance the resilience of 
the Guam energy infrastructure. The Navy continues improving energy 
efficiency, reducing consumption, and partnering on renewable energy 
projects with Guam Power Authority, the responsible agency for Guam 
energy infrastructure.
    Mr. Shear. The demand for electrical power under the military 
build-up can be met by the current generation capacity on Guam. No 
power generation upgrades will, therefore, be required. However, 
consistent with Navy sustainability goals, a portion of the power 
demand will be satisfied by power generated from renewable energy 
sources, including photovoltaic solar panels on rooftops and acreage 
within the cantonment and/or family housing areas.
    We also plan to upgrade transmission lines and construct a new on-
site substation.
    Additionally, both the Navy and the Marine Corps recognize the need 
to reach and maintain security and resilience of the energy 
infrastructure. The Marine Corps is actively pursuing suitable ways of 
achieving that goal as well as providing a sensible approach to 
implementing renewable energy, with an objective of identifying 
practical and feasible energy measures that are reliable and 
financially reasonable.
                        freely associated states
    25. Senator Hirono. Last year I had the opportunity to speak with 
Secretary Carter, prior to his confirmation, about my concerns 
regarding our compacts of free association with the freely associated 
states (FAS) of the Federated States of Micronesia, the Republic of the 
Marshall Islands, and the Republic of Palau. We began our relationship 
with these nations after World War II, when we began testing nuclear 
weapons in the Marshall Islands. The U.S. was tasked with governing the 
region, then referred to as the Trust Territory of the Pacific, by the 
United Nations. It is worth noting that at one point the region was 
exclusively under the jurisdiction of the U.S. Navy. In 1986 these 
three nations gained their independence but remained strong allies of 
the United States through our compacts of free association.
    The compacts ensured the United States would retain exclusive 
military jurisdiction over the region. It also allowed FAS citizens the 
opportunity to enlist in the military and freely travel between our 
nations. Recognizing that certain jurisdictions would be more likely to 
see an influx of FAS citizens, Congress provided dedicated funding to 
Hawaii, Guam, American Samoa, and the Commonwealth of the Northern 
Mariana Islands (CNMI) to defray the costs associated with this 
``compact impact.''
    In 2010, the United States concluded renegotiating the terms of our 
compact with Palau, in which we promised to provide $215 million to 
Palau through fiscal year 2024. While the compact is now in place, the 
United States has not ratified this agreement due to Congressional 
budgetary rules requiring a pay-for--in essence, the United States must 
find roughly $13 million annually to offset the costs of this promise.
    According to the Department of Defense, FAS citizens generally, and 
Palauans specifically, enlist in the military at a higher rate than 
citizens of any State in the United States. I have met with Palauan 
President Tommy Remengesau, who has enumerated his concerns about 
China's growing economic influence and expansion in the Pacific and our 
seemingly lax attitude toward our compact with Palau. His concerns were 
clear: if the United States does not live up to its promises to Palau, 
how we will keep the region clear of China's influence?
    I am sincerely concerned that our lack of action in this matter may 
pose a threat to our position in the region. This is especially 
worrying as China's influence in the region continues to grow -a 
concern which I believe provided the most compelling reason for the 
Department to rebalance its forces to the Asia-Pacific region. I would 
like to continue my conversation with Secretary Carter, as well as 
Admiral Harris, and Secretary Shear on this issue, and ask the 
Department to please consider the following questions:
    Given the above, can you please elaborate on whether, and how, the 
FAS play a role in the Department's plans for its rebalance to the 
Asia-Pacific?
    Admiral Harris. Assured and exclusive access to the Freely 
Associated States (FAS) plays an important supporting role in United 
States efforts to maintain much-needed influence from San Diego all the 
way to Southeast Asia which would be of vital importance in a 
contingency or conflict. The FAS are home to strategic facilities such 
as the Reagan Ballistic Missile Defense Test Site on Kwajalein, as well 
as key capabilities such as our Civic Action Team in Palau. FAS 
citizens are serving honorably in the U.S. military and beginning in 
2010, are graduating from U.S. service academies. The FAS are 
strategically located and it is in our national interest to maintain 
strong ties with the FAS. The FAS will play an important role in the 
event of regional conflict as hubs to maintain open sea lines of 
communication. I support Congress' efforts to ensure our relationships 
remain steadfast.
    Mr. Shear. Maintaining strong relationships with the Freely 
Associated States sends a strong signal about our commitment to the 
rebalance. As a whole, our three Compact agreements ensure that the 
United States has what essentially amounts to continuous air and sea 
access from the Philippines to Hawaii, which is important in supporting 
our ability to move forces in and out of the region freely.

    26. Senator Hirono. Does the Department share my concerns, which 
echo those of President Remengesau, about China's expansion into this 
region?
    Admiral Harris. [Deleted.]
    Mr. Shear. The Department of Defense is concerned with any 
activity, including Chinese activity, directed at disrupting United 
States relationships and access to the region. We welcome the 
appropriate involvement of other parties to address regional concerns, 
so long as their activities are conducted with transparency, 
accountability, and respect for international standards.

    27. Senator Hirono. Has the Department given any consideration to 
what losing the support of Palau or the other freely associated states 
would mean for the security of the Commonwealth of the Northern Mariana 
Islands (CNMI), Guam, or Hawaii?
    Admiral Harris. Losing the support of Palau and/or the other two 
Freely Associated States (FAS) would create an opportunity for another 
nation to offer increased assistance to these countries and build 
additional influence which, over time, can only work to the U.S.'s 
strategic disadvantage. China is clearly pursuing a strategy to that 
end through offers of loans and economic development. The Compact 
agreements are individual and bilateral, and, because of geography, 
losing the support of any one of the three FAS would reduce our ability 
to protect the remaining two--something the U.S. promised to do in the 
Compacts. The defense relationship that USPACOM built with the Palauan 
Government through semiannual bilateral meetings has improved my 
confidence that Palau would support United States defense interests in 
a contingency situation. I welcome and support efforts by Congress to 
further deepen our relationship with the FAS, to ensure that our 
commitment remains unquestioned.
    Mr. Shear. As a whole, our three Compact agreements provide the 
United States with what amounts to ensured air and sea access from 
Hawaii to the Philippines. Losing the support of Palau or the other 
Freely Associated States would lessen the broader strategic value of 
those arrangements in supporting our ability to pursue United States 
interests in the Asia Pacific region.

    28. Senator Hirono. Does the Department have any plans to work with 
other agencies, such as the State Department or the Department of the 
Interior, to come up with a comprehensive strategy to ratify our 
compact with Palau and secure our standing in the region?
    Admiral Harris. DOD and USPACOM have a strong working relationship 
with Palau, and with both the Department of State and Department of 
Interior. I recognize Palau's strategic importance and will continue 
working to ensure that our relationship remains strong.
    Mr. Shear. Congressional approval and implementation of the 
Agreement has been a priority for the Administration since the 
agreement was signed on September 3, 2010. The Department of Defense 
has worked with the Department of State and the Department of the 
Interior on developing a strategy to obtain approval of the agreement 
and will continue working toward that end state in support of State and 
Interior efforts.

    29. Senator Hirono. Are there areas in which the Department can 
assist jurisdictions impacted by migration from the FAS to States and 
territories, specifically Hawaii and Guam, in providing housing, 
economic development, or employment solutions for this population?
    Admiral Harris. As you noted, we are fortunate that citizens of the 
Freely Associated States (FAS) take advantage of their opportunity to 
enlist in the United States military, serving honorably while 
supporting their families with military housing and other benefits. 
There is not a specific Department of Defense program directed towards 
the housing, economic development, or employment challenges facing the 
FAS population, but military commanders will continue their close 
coordination with local community leaders to explore mutually 
beneficial opportunities.
    Mr. Shear. DOD does not have efforts underway directed specifically 
toward housing, economic development, or employment solutions for 
Freely Associated States (FAS) populations migrating to U.S. States and 
territories. However, many FAS citizens do take advantage of the 
opportunity to seek employment and housing benefits by joining the U.S. 
military.

    30. Senator Hirono. I've also recently met with businessmen from 
the CNMI, who discussed concerns with Chinese economic expansion in 
their territory--the same United States territory that is still without 
full power more than a month after a typhoon wiped out its power grid. 
I'm told that Chinese economic expansion in the region has been 
substantial. Would the Department consider economic expansion to CNMI a 
threat to security in the Pacific region?
    Admiral Harris. Yes. PACOM is concerned by the growing influence 
China may be gaining through its economic engagement in the Pacific 
Island Nations. Current Chinese economic engagement could facilitate 
Chinese strategic interests in the region (particularly in the FAS), 
leaving the United States with reduced levels of access and influence. 
Chinese economic investment can drive growth, but it has also left 
countries, particularly small countries, with unmanageable debt.
    Mr. Shear. The United States Government supports sustainable 
economic development for Palau. The Department of Defense is concerned 
about the possibility of any country, including China, using economic 
engagement to facilitate its strategic interests in a way that reduces 
United States access and influence. Although Chinese economic 
investment can potentially create growth, it may also burden countries, 
particularly small ones with unmanageable debt. Investment in CNMI by 
private Chinese enterprises obligations can be beneficial for economic 
development there, and in our view, would be compatible with our 
proposed military activities.
                                 ______
                                 
                  Questions Submitted by Senator King
               military capabilities in the asia-pacific
    31. Senator King. What additional capabilities will the DDG-1000 
class destroyer bring to our Pacific Fleet once in service, and how do 
you anticipate future commanders in the Pacific will employ these 
capabilities?
    Admiral Harris. As extremely capable multi-mission combatants, the 
DDG-1000 class will provide future Pacific commanders a wide range of 
employment options to meet the challenging sets of warfighting and 
Theater Security Cooperation missions both on the open ocean and within 
the littorals.
    The DDG-1000 class is under construction, and the first ship, DDG-
1000, is expected to be operational in Fiscal Year 2019. Once 
operational, DDG-1000s will provide the next-generation multi-mission 
surface combatant capabilities tailored to provide land attack and 
littoral dominance to defeat current and projected threats. In the 
littoral region, the DDG-1000's two Advanced Gun Systems firing Long-
Range Land Attack Projectiles will triple naval surface fires coverage 
to meet validated Marine Corps fire support requirements. Employing 
active and passive sensors and a SPY-3 X-Band Multi-Function Radar, 
DDG-1000 will conduct area air surveillance, including over-land 
coverage, in the traditionally difficult and cluttered sea-land 
interface region. Its Integrated Undersea Warfare suite coupled with 
reduced acoustic output will significantly enhance the ships' mine 
avoidance capability when operating in the littorals. DDG-1000 will 
also employ a composite superstructure which reduces radar cross 
section 50-fold. This, along with reduced acoustic output will make 
these ships harder to detect and improve survivability in an anti-
access/area denial environment. I am excited about the operational 
capability these ships will bring to the Pacific.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
